<html>
<title> - THE FUTURE OF U.S. PUBLIC DIPLOMACY</title>
<body><pre>[Senate Hearing 111-763]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-763
 
                  THE FUTURE OF U.S. PUBLIC DIPLOMACY

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
63-020                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

RUSSELL D. FEINGOLD, Wisconsin       ROGER F. WICKER, Mississippi
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
KIRSTEN E. GILLIBRAND, New York

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Glassman, Hon. James K., former Under Secretary of State for 
  Public Diplomacy, executive director, George W. Bush Institute, 
  Dallas, TX.....................................................    17
    Prepared statement...........................................    20
Hughes, Hon. Karen P., former Under Secretary of State for Public 
  Diplomacy, worldwide vice chair, Burson-Marsteller, Austin, TX.    11
    Prepared statement...........................................    15
Kaufman, Hon. Edward E., U.S. Senator from Delaware, opening 
  statement......................................................     1
Lieberman, Hon. Evelyn S., former Under Secretary of State for 
  Public Diplomacy, director of communications and public 
  affairs, The Smithsonian Institution, Washington, DC...........     5
    Prepared statement...........................................     8
McHale, Hon. Judith A., Under Secretary of State for Public 
  Diplomacy, Department of State, Washington, DC.................    39
    Prepared statement...........................................    41
    Responses to questions submitted for the record by Senators:
        John F. Kerry............................................    51
        Richard G. Lugar.........................................    53
        Russell D. Feingold......................................    63
Wicker, Hon. Roger F., U.S. Senator from Mississippi, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

List of Alumni of ECA Programs Who Are Current Chiefs of State of 
  Heads of Government............................................    59

                                 (iii)

  


                  THE FUTURE OF U.S. PUBLIC DIPLOMACY

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

        U.S. Senate, Subcommittee on International 
            Operations and Organizations, Human Rights, 
            Democracy, and Global Women's Issues, Committee 
            on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:02 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Edward E. 
Kaufman presiding.
    Present: Senators Kaufman, Barrasso, and Wicker.

          OPENING STATEMENT OF HON. EDWARD E. KAUFMAN,
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. I assume Senator Wicker is on his way. I 
think we will go ahead and start. I'll be making an opening 
statement. Thank you, Senator Barrasso, for being here.
    This is a day I've been looking forward to for a long time. 
Today we meet to examine the future of U.S. public diplomacy, 
one of the most important facets of foreign policy. As 
Secretary Clinton has said, we must use all the tools in our 
toolbox--diplomacy, development, and defense--to promote the 
U.S. interests globally, and soft power is an absolutely 
critical element of that strategy.
    Public diplomacy often takes the form of broadcasting, 
exchanges, and outreach with foreign populations, all of which 
help to promote greater understanding between the United States 
and the international community. By creating direct channels of 
communication between America and the world, U.S. public 
diplomacy contributes to global security and stability.
    Tools of public diplomacy can be grouped under three large 
umbrellas: education and cultural exchanges that promote cross-
cultural dialogue and understanding; informational programming 
that explains U.S. policy; and international broadcasting that 
provides accurate, informative news and information, often to 
societies that do not have unfettered access to a free press.
    Those efforts, our broadcasting efforts serve two purposes: 
one, providing news to both open and closed society; and two, 
serving as a model for increasing the flow of news and 
information globally.
    Just like government-to-government diplomacy, public 
diplomacy efforts are only as effective as the quality of the 
leadership and personnel that shapes and implements them. This 
is why we will hear from three extraordinarily gifted and 
qualified individuals who have led these efforts in the State 
Department and learn from them about the lessons learned from 
their wide experience, and to hear the current Under Secretary 
of Public Diplomacy about today's strategy and policy and 
priorities.
    The goal of this hearing is to assess public diplomacy 
strategy of the past, the present, and with an eye toward the 
future. There is no question that many achievements have been 
made since the Under Secretary of Public Diplomacy was 
established in 1999 and it is important the State Department 
incorporate past successes into the future planning. This is 
why we must consider which tools have proven most effective and 
which have proven the most challenging. I love that word, 
``challenging.''
    I know our first panel of witnesses can shed light on 
valuable lessons learned based on their firsthand experience 
shaping public diplomacy strategy. The broader question to be 
explored today is how do we communicate our global message most 
effectively and how can achievements of the past be used as 
models for future public diplomacy activities? In addition, we 
must closely consider each tool of public diplomacy, including 
educational exchanges, American Centers, and international 
broadcasting efforts under the Broadcasting Board of Governors.
    The witnesses and many who have known me throughout my 
career know that I'm an unequivocal supporter of complete 
separation between programming in international broadcasting 
and the rest of the government. The firewall that exists 
between the BBG programming and the rest of the government is 
essential, and I look forward to hearing from our witnesses 
about their experiences, positive and negative, with this 
difficult issue, especially in wartime.
    Finally, we should consider how new technology changes our 
strategy and future vision for public diplomacy. I'm interested 
in hearing about the opportunities new technology creates and 
the way it forces us to reevaluate our old way of doing 
business. For example, how did mobile phone technology change 
our approach in regions such as Afghanistan and Pakistan? And 
what's the future of the Smith-Mundt Act, part of which 
prohibits domestic dissemination of information produced for 
foreign audiences, when a quick search of the Internet will 
turn up all the information anyway.
    To answer these and other questions, we have two very 
distinguished panels. First we hear from three former Under 
Secretaries for Public Diplomacy, for whom I have great respect 
and admiration for their honorable service to this country. The 
first is Evelyn Lieberman, appointed by President Clinton as 
the first Under Secretary of Public Diplomacy. As a trailblazer 
who set the path for successes, Evelyn oversaw the difficult 
transition of shifting our public diplomacy structure to the 
State Department from the U.S. Information Agency. Evelyn was 
well equipped for this enormous challenge, having come from the 
Clinton White House, where she served as Assistant to the First 
Lady, Hillary Clinton, Deputy White House Press Secretary, and 
Deputy White House Chief of Staff; and later was Director of 
Voice of America, where she acquired valuable experience in 
international broadcasting.
    Since 2002, Evelyn has continued her career in the Federal 
Government, serving as the Director of Communications and 
Public Affairs for the Smithsonian.
    Next we have former Under Secretary Karen Hughes, appointed 
by President Bush to this position after serving as counsel in 
the White House from 2000 to 2002. When she was appointed in 
2005, Karen was given the rank of ambassador to underscore the 
importance of public diplomacy. While at State, Karen 
implemented important changes, including expanding English 
language training exchange programs, developing a strategic 
plan for public diplomacy, and creating a rapid response unit 
to respond to inaccurate press reports.
    Upon leaving State in 2007, Karen told the BBC that her 
greatest achievement was ``transforming public diplomacy and 
making a national security priority central to everything we do 
in our government,'' which is the goal I believe continues to 
this day.
    Since returning to Texas, Karen has been serving as the 
global vice chair of public relations firm Burson-Marsteller.
    Finally, we have former Under Secretary Jim Glassman, also 
appointed in the Bush administration. Jim brought with him to 
this position his previous experience as chairman of the 
Broadcasting Board of Governors. I worked frequently with Jim 
in that capacity and saw firsthand his commitment to promoting 
and developing a robust international broadcasting and public 
diplomacy strategy.
    While serving as Under Secretary, Jim focused on developing 
a strong interagency structure that allowed visibility into the 
strategic communications work being done in other parts of the 
government, especially the Department of Defense. He also 
created the Global Strategic Engagement Center with staff from 
State and the intelligence community to promote great 
coordination day to day.
    Since leaving office, Jim has been working in the nonprofit 
sector and was recently selected to lead the Public Policy 
Institute at the George W. Bush Presidential Library.
    We are also joined today by current Under Secretary for 
Public Diplomacy Judith McHale, a veteran of private sector 
media who will testify on our second panel. Most recently, 
Under Secretary McHale served as the president and CEO of 
Discovery Communications, parent company of Discovery Channel, 
TSL, Animal Planet, and a host of other networks. In her 11 
years at Discovery, she oversaw worldwide expansion to 1.4 
billion subscribers in 107 territories in countries.
    Since leaving Discovery for the State Department last year, 
she's applied her wide experience in business to revamping our 
public diplomacy strategy. I look forward to her testimony and 
hearing about future plans and current policy.
    Finally, I thank Senator Wicker for his interest and 
commitment, and I want to thank Chair Boxer for generously 
allowing us to hold this subcommittee meeting. I'd also like to 
thank the HELP Committee for hosting us to this committee.
    Senator Wicker.

           OPENING STATEMENT OF HON. ROGER F. WICKER,
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Senator Kaufman, for convening 
this hearing to evaluate the future of U.S. public diplomacy. 
This should be a very good hearing. It's my hope that this 
hearing will allow us to identify some of the challenges faced 
by previous under secretaries, as well as understand the 
current direction of the administration and the direction they 
would like to take regarding these efforts.
    I would note that this is the second hearing Senator 
Kaufman has chaired and I appreciate you, Ted, for devoting 
your time and helping us examine in depth these important 
issues that impact U.S. foreign policy.
    Public diplomacy represents an indispensable component of 
any viable foreign policy. It is distinguished from the 
exclusive contact with foreign governments that has 
characterized traditional diplomacy. The importance of 
effective public diplomacy ought to be and has been embraced by 
both sides of the aisle. Believing is simple.
    Translating it into action is a bit more difficult. 
According to a May 2009 GAO report, the U.S. Government has 
spent more than $10 billion on international communication 
efforts since September 11, 2001. Yet international public 
opinion polls highlight negative attitudes toward the United 
States.
    It is my hope that this hearing will shed light on this 
truth and identify steps that might reverse this trend.
    It is unquestionable that policy shapes public opinion. One 
need only look to the Kerry-Lugar-Berman legislation, which 
provided aid to Pakistan, to see how damaging the lack of 
understanding of United States policy can be to foreign 
audiences. We worked here in Congress to pass a bill increasing 
aid to Pakistan by $7.5 billion over the next 5 years, focusing 
on addressing issues such as poverty, illiteracy, joblessness, 
and education. However, many Pakistanis viewed these efforts 
with suspicion and raised questions about United States 
interference into Pakistani sovereignty, forcing the authors of 
the bill to release an explanatory statement clarifying the 
legislation.
    I hope that during this hearing we can explore ways that 
these examples could be avoided through increased engagement 
and explanation in advance.
    It remains true that oftentimes because of U.S. national 
interests we have to adopt positions overseas that might become 
unpopular. We have seen this most recently in our increased 
focus on counterinsurgency. The leadership roles we often play 
come with the added consequence of international unpopularity. 
But this does not erase the need for an effective public 
diplomacy strategy. In fact, it reinforces that need.
    It is also true that the responsibility of public diplomacy 
does not lie with one department or agency. The State 
Department, the Defense Department, and USAID each have their 
own substantial public diplomacy responsibilities. We have 
witnessed the overlap of these responsibilities most recently 
in Haiti, where United States public diplomacy efforts will 
likely be needed for years to come. In the areas where our 
military is currently engaged, the need for coordinated public 
diplomacy efforts is immeasurable. As we continue to surge 
troops into Afghanistan, our ability to cohesively fight the 
battle of ideas is important there.
    As we hear from witnesses today, it is my hope that their 
experiences of the past will help shed light on how we approach 
our future outreach. As we use this time to focus on U.S. 
public diplomacy efforts, we should be mindful that other 
countries are also working to define and improve their public 
image internationally. China and Russia continue to show 
increasing influence around the world. I would be interested to 
hear from our witnesses how they view this influence and how 
the United States can work to ensure we keep pace with other 
countries as we all strive to engage, inform, and influence key 
international audiences.
    So thank you, Mr. Chairman, for calling this hearing. I 
welcome both panels of witnesses and look forward to their 
testimony.
    Senator Kaufman. Thank you, Roger.
    Let's now hear from the witnesses, starting with Evelyn 
Lieberman.

 STATEMENT OF HON. EVELYN S. LIEBERMAN, FORMER UNDER SECRETARY 
 OF STATE FOR PUBLIC DIPLOMACY, DIRECTOR OF COMMUNICATIONS AND 
  PUBLIC AFFAIRS, THE SMITHSONIAN INSTITUTION, WASHINGTON, DC

    Ms. Lieberman. Thank you, Mr. Chairman and members of the 
committee, for inviting me here today to discuss the future of 
American public diplomacy. Before I begin, however, I would 
like to thank you, Mr. Chairman, for your kind words on the 
floor of the Senate today about me. I could have done without 
the enormous blowup of a picture of me taken on a bad hair day, 
but that's a discussion between my hairdresser and me.
    Today I'd like to look back briefly at the creation of the 
State Department Office of Public Diplomacy and what that 
experience might tell us as we work to support and better equip 
the foreign service professionals who represent our government, 
our culture, and our people to the world. I had the honor of 
serving as the first Under Secretary of State for Public 
Diplomacy and Public Affairs during the final year of the 
Clinton administration. My tenure in that job was fairly brief 
and I have since observed the Department and public diplomacy 
from the outside vantage point as a private citizen. I do know 
that Secretary of State Clinton has a deep longstanding 
commitment to strengthening our public diplomacy and she has 
developed--she has assembled a superb public diplomacy team. My 
hope in appearing before you is that some of the things I 
learned as Under Secretary remain relevant today.
    Prior to becoming Under Secretary, as you said, Mr. 
Chairman, I had worked as Deputy White House Chief of Staff and 
had served as Director of the Voice of America. At VOA I 
learned firsthand the wisdom and power of diplomatic speech 
that is honest and respectful of its audience. Good news or bad 
news, VOA broadcasts the truth and because of that countless 
Americans listen, countless millions listen, and they listen 
with trust.
    So when Secretary Albright asked me to head the State 
Department's new Public Diplomacy Office, she described its 
mission in words that hit home. ``We are trying,'' she said, 
``to build a diplomacy that listens more.''
    This was only a decade ago, but it was before 9/11 and it 
was medieval times in terms of where we are today with the 
Internet and global communications. Yet, although there was no 
Twitter or iPhones or YouTube, it was a pivotal time in 
American democracy. New forces of global communication, the 
Internet, cell phones, 24-hour cable news were pulling our 
Nation and the world together. Our planet was shrinking fast as 
we crossed borders online and watched the world on TV and 
computer screens.
    It became tempting then to think that the unifying wonders 
of technology would give us a global village, a uniformity that 
might sweep away old divisions rooted in national, ethnic, and 
cultural identities. It was indeed a new world, but Secretary 
Albright cautioned us. ``Globalization,'' she said, ``has 
blurred many national and cultural traditions, but it has by no 
means erased them.'' That was true then and it is true today.
    We needed and still need to reshape our traditional 
diplomacy, to take it beyond the formal channels and often 
elite settings in which it has operated for so long. To 
strengthen our diplomacy in the new information age, President 
Clinton and Congress agreed to restructure the Foreign Service 
by merging the U.S. Information Agency and State Department 
Office of Public Affairs, creating the office that I served in. 
The reorganization aimed to give Foreign Service officers at 
USIA, the principal practitioners of public diplomacy, more 
equal status in the Department when it came to formulating and 
executing foreign policy.
    The Office of Public Diplomacy is still the only branch in 
the State Department that partners with independent 
nongovernmental organizations and programs, and its commitment 
to open debate and cross-cultural understanding is essential to 
advancing our diplomatic mission.
    As first Under Secretary, I did not myself get to practice 
much public diplomacy. My job was to rewire the structural 
circuitry, meld press operations with cultural outreach, and 
institute an organizational framework where public diplomacy 
could thrive. We were combining two distinct institutional 
cultures that had functioned separately in Washington and at 
our embassies for generations, one group of traditional 
diplomats, used to working in classified settings behind closed 
doors, the other, the cultural and public affairs people who 
engaged foreign publics, presenting American culture abroad and 
nurturing dialogue, largely through education and cultural 
programs and exchanges. This second group brought America to 
other countries and other cultures home to us. And, as with 
most big ideas, implementation meant organizational sausage-
making in the Department at all levels.
    To do this, I met with hundreds of staff and employees on 
both sides of the merger, visited embassies to learn how they 
operated and observe the cultural, educational, and exchange 
programs that were run now by the office I led. This process 
led me to believe even more in the goal of the merger, to 
infuse cultural and public diplomacy into the everyday conduct 
of foreign affairs. It meant including public diplomacy 
specialists in strategic planning. It meant adding a public 
diplomacy voice to internal policy debates, no matter what the 
issue, the myriad daunting issues that the State Department 
tackles every day.
    In launching this public diplomacy effort, we did not aim 
to end or alter too suddenly the practices and tenets of 
traditional diplomacy. We wanted to encourage and enable 
diplomats to work in a field where foreign relations were 
increasingly conducted in public, instantaneously through mass 
media, or, just as often, through local media or targeted 
Internet communications. People no longer waited to hear what 
diplomats had hammered out in closed rooms. They could watch 
leaders shape public policy--shape policy live and in real 
time, witness the decision process, and by reacting help drive 
it.
    Indeed, the rise of interactive Internet-based 
communications has changed the interests and expectations of 
our global audience. People no longer only wanted to hear 
arguments. They wanted to argue back. Audiences still would 
listen, but they expected to be heard. Our mission as 
diplomatic communicators was not simply to make presentations, 
but to engage foreign publics in conversations, and 
conversations have to be two-way. Simply airing pro-American 
ads on Al Jazeera will not work because they are all push and 
no pull. They encourage attitudes toward our country that they 
seek to reverse.
    Simply put, we need communications strategies that listen 
more. We must stand firm against and defeat terrorism, true. 
But it is wrong and can be dangerously wrong to believe that 
simply listening shows weakness or that respect for other 
cultures naively invites exploitation.
    Seeing the results and impact of these public diplomacy 
programs in education and culture made it clear to me that, as 
one report stated, ``Personal, active, direct engagement by 
diplomats is one of the best foreign policy tools we have.'' At 
one point we polled our ambassadors, who unanimously attested 
to the value and import of education and cultural programs and 
charged us to do more to strengthen them.
    When I became Under Secretary, I was astonished to discover 
the extent to which these programs had to struggle for 
resources to survive, let alone grow. I know that my successors 
as Under Secretary continue to advocate as great as I do to 
strengthen these programs that have worked so powerfully for 
our country.
    When I was Under Secretary, the Fulbright Senior Scholars 
Program sent a thousand Americans to lecture and conduct 
research in 140 countries and the Fulbright Student Program 
supported 800 Americans studying abroad and 3,000 foreign 
students studying here. These were respectable numbers and they 
have increased since, but Fulbright participants were chosen 
from among many thousands of gifted applicants who would have 
benefited the program immensely had we had the means to accept 
them.
    These programs should be viewed as smart investments in 
American security and international peace, not simply as a 
budget expense. As of today, more than 330 alumni of our 
education and cultural programs have gone on to become heads of 
state or government and more than 40 are Nobel laureates. These 
are leaders who know America, who have friends here, leaders to 
whom this country is a human place, not an abstraction or a 
piece of propaganda. We should be investing heavily in these 
programs.
    As I said, conducting effective public diplomacy is much 
more difficult now than it was prior to 9/11 when we launched 
the program. Of course we must ensure the safety and security 
of Foreign Service officers and we know that in some countries 
it takes exceptional fortitude and courage for a diplomat to 
work beyond embassy walls. Under Secretary Powell an ambitious 
program was begun to construct and modernize embassies that are 
safe, functional, and able to advance our diplomatic mission. 
In some cases, however, these new embassies have been relocated 
outside major cities, where access to them and our programs is 
limited. Security and cost concerns require limitations, but we 
must do everything we can to see that our embassies are as open 
to the public as they can be and not remote from urban centers.
    I see that my time is about to expire. I just want to say 
that many of these programs--and I know, Senator, you talked, 
Mr. Chairman, you talked about American Corners and American 
Presence Posts, and I would say that these are effective tools 
to expand the reach of our public diplomacy even further, and I 
hope we can replicate them and other existing programs as much 
as possible.
    Our country needs to invest in these proven programs on a 
major scale and the American people need to understand the 
importance of strengthening our investment in public diplomacy.
    Thank you, and I'm happy to answer any questions you may 
have.
    [The prepared statement of Ms. Lieberman follows:]

 Prepared Statement of Evelyn S. Lieberman, Director of Communications 
    and Public Affairs, The Smithsonian Institution, Washington, DC

    Mr. Chairman, members of the committee, thank you for inviting me 
here to discuss the future of American public diplomacy. Today, I would 
like to look back briefly at the creation of the State Department 
office of public diplomacy and what that experience might tell us as we 
work to support and better equip the Foreign Service professionals who 
represent our government, our culture, and our people to the world.
    I had the honor of serving as the first Under Secretary of State 
for public diplomacy and public affairs during the final year of the 
Clinton administration. My tenure in that job was fairly brief and I 
have since observed the State Department and public diplomacy from the 
outside vantage point of a private citizen. I do know that Secretary of 
State Clinton has a deep, longstanding commitment to strengthening our 
public diplomacy and she has assembled a superb public diplomacy team. 
My hope, in appearing before you, is that some of the things I learned 
as Under Secretary remain relevant today.
    Prior to becoming Under Secretary, I had worked as deputy White 
House chief of staff and had served as director of the Voice of 
America. At VOA I learned firsthand the wisdom and power of diplomatic 
speech that is honest and respectful of its audience. Good news or bad 
news, VOA broadcasts the truth, and because of that countless millions 
listen, and they listen with trust. Over the years, VOA's Office of 
Development and Training has conducted workshops for more than 5,000 
foreign journalists in 140 countries.
    So when Secretary of State Madeleine Albright asked me to head the 
State Department's new public diplomacy office, she described its 
mission in words that hit home. ``We are trying,'' she said, ``to build 
a new diplomacy that listens more.''
    This was only a decade ago, but it was before 9/11, and it was 
medieval times in terms of where we are today with Internet and global 
communications. Yet although there was no Twitter, no iPhones or 
YouTube, it was a pivotal time in American diplomacy. New forces of 
global communication--the Internet, cell phones, 24-hour cable news--
were pulling our Nation and the world together. Our planet was 
shrinking fast, as we crossed borders online and watched the world on 
TV and computer screens. It became tempting to think that the unifying 
wonders of technology would give us a global village--a uniformity that 
might sweep away old divisions rooted in national, ethnic, and cultural 
identities. It was indeed a new world, but Secretary Albright cautioned 
us: ``Globalization,'' she said, ``has blurred many national and 
cultural traditions, but it has by no means erased them.'' That was 
true then and it is true today.
    We needed and still need to reshape our traditional diplomacy--to 
take it beyond the formal channels and often elite settings in which it 
has operated for so long. To strengthen our diplomacy in the new 
information age, President Clinton and Congress agreed to restructure 
the Foreign Service by merging the U.S. Information Agency and the 
State Department Office of Public Affairs, creating the Office of 
Public Diplomacy and Public Affairs. The reorganization aimed to give 
Foreign Service officers in USIA--the principle practitioners of public 
diplomacy--more equal status in the Department when it came to 
formulating and executing foreign policy. The Office of Public 
Diplomacy is the only branch of the State Department that partners with 
independent, nongovernmental organizations and programs, and its 
commitment to open debate and cross-cultural understanding is essential 
to advancing our diplomatic mission.
    As the first Under Secretary, I did not myself get to practice much 
public diplomacy--my job was to rewire the structural circuitry, meld 
press operations with cultural outreach, and institute an 
organizational framework where public diplomacy could thrive. We were 
combining two distinct, institutional cultures that had functioned 
separately in Washington and at our embassies for generations--
traditional diplomats, used to working in classified settings behind 
closed doors and the cultural and public affairs people who engaged 
foreign publics, presenting American culture abroad and nurturing 
dialogue, largely through educational and cultural programs and 
exchanges. This second group brought America to other countries and 
other cultures home to us. As with most big ideas, implementation meant 
organizational sausagemaking at all levels of the Department--combining 
payroll functions, reconfiguring office space, safe-guarding the rights 
and aspirations of our Foreign Service professionals as we reorganized, 
and deciding what to cut and what to keep.
    To do this job, I met with hundreds of staff and employees on both 
sides of the merger, visited embassies to learn how they operated and 
observed the cultural, educational and exchange programs that now were 
run by the office I led. This process led me to believe even more in 
the goal of the merger--to infuse cultural and public diplomacy into 
the every day conduct of foreign affairs. It meant including public 
diplomacy specialists in strategic planning. It meant adding a public 
diplomacy voice to internal policy debates, no matter what the issue--
combating terrorists, promoting the rule of law, stopping the 
trafficking in human beings, fighting disease, strengthening civil 
institutions, addressing weapons proliferation--the myriad, daunting 
issues that the State Department tackles every day.
    In launching Public Diplomacy at the Department, we did not aim to 
end--or to alter too suddenly--the practices and tenets of traditional 
diplomacy. We wanted to encourage and enable diplomats to work in a 
world where foreign relations were increasingly conducted in public, 
instantaneously, through mass media or, just as often, through local 
media or targeted Internet communications. We realized that in the new 
world of global information, millions of people could access and 
observe policymaking and instantly register their opinions, ideas and 
objections. People no longer waited to hear what diplomats had hammered 
out in closed rooms; they could watch leaders shape policy live and in 
real time, witness the decision process and, by reacting, help drive 
it.
    Indeed, the rise of interactive, Internet-based communications had 
changed the interests and expectations of our global audience. People 
no longer only wanted to hear arguments--they wanted to argue back. 
Audiences still would listen but they also expected to be heard. Our 
mission as diplomatic communicators was not simply to make 
presentations but to engage foreign publics in conversations, and 
conversations have to be two-way. Simply airing pro-American ads on Al 
Jazeera will not work because they are all push and no pull--they 
encourage attitudes toward our country that they seek to reverse. 
Simply put, we need communication strategies that ``listen more.'' We 
must stand firm against and defeat terrorists, but it is wrong--and can 
be dangerously wrong--to believe that simply listening shows weakness, 
or that respect for other cultures naively invites exploitation.
    A 2007 study by the Center for Strategic and International Studies, 
entitled, ``The Embassy of the Future,'' put matters succinctly. 
``America's diplomats,'' it said, ``are struggling to break free from 
the bureaucratic practices that keep them inside U.S. embassy buildings 
and that emphasize the processing of information over the personal, 
active, direct engagement that wins friends and supporters for 
America--the kind of diplomacy that inspired Foreign Service officers 
to serve their country in the first place.''
    Seeing the results and impact of public diplomacy programs in 
education and culture made it clear to me that ``personal, active, 
direct engagement'' by diplomats is one of the best foreign policy 
tools that we have. At one point we polled our ambassadors, who 
unanimously attested to the value and import of educational and 
cultural programs and charged us to do more to strengthen them.
    When I became Under Secretary I was astonished to discover the 
extent to which these programs had to struggle for resources to 
survive, let alone grow. We all know that throwing money at issues does 
not necessarily improve things, but these programs work so powerfully 
for our country that I continue to advocate a great surge in their 
growth whenever I get the chance, just as I did as Under Secretary and 
as--I am sure--my successors have done. And with, I would bet, 
unfortunately consistent results.
    When I was Under Secretary, the Fulbright Senior Scholars program 
sent 1,000 Americans to lecture and conduct research in 140 countries, 
and the Fulbright Student Program supported 800 Americans studying 
abroad and 3,000 foreign students studying here. These were respectable 
numbers, I suppose, but Fulbright participants were chosen from among 
many thousands more gifted applicants who would have benefited the 
program immensely had we had the means to accept them.
    Fulbright students and scholars should be viewed as a smart 
investment in American security and international peace, not simply as 
a budget expense. Similarly, the Citizens Exchange Program in fiscal 
year 2000 engaged 1,000 Americans and 3,000 foreign citizens in 
professional and cultural exchanges, and our International Visitors 
Program enabled about 5,000 emerging foreign leaders to visit the 
United States. At the time, alumni of the Visitors program included 
more than 200 current or former heads of state of foreign governments--
leaders who knew America, who had friends here--leaders to whom this 
country was a human place, not an abstraction or a piece of propaganda. 
As of today, more than 330 alumni of our educational and cultural 
programs have gone on to become heads of state or government and more 
than 40 are Nobel laureates. We should be investing heavily in these 
programs.
    A singular project that we undertook in November 2000 was the White 
House Conference on Culture and Diplomacy, a colloquy hosted by 
President and Mrs. Clinton and Secretary Albright that assembled 200 
cultural leaders, artists, and diplomatic leaders from around the 
world, as well as congressional leaders. Organized in partnership with 
the Office of the First Lady, the National Security Council and the 
White House Millennium Council, the conference focused attention on the 
role of culture in U.S. foreign policy and produced recommendations for 
future development of American cultural diplomacy.
    The event was high profile, involving a major Islamic leader, an 
African Nobel Laureate in Literature, two former American Poets 
Laureate, and some of the world's most recognized actors, artists, and 
musicians, not to mention the President, First Lady, Secretary of 
State, ministers of culture from around the world and leaders of 
private foundations, NGO's, and multinational companies. The conference 
received global media coverage, and large numbers of Americans heard 
about the connections between culture and public policy around the 
world--about the powerful force that public diplomacy can be in a 
dangerous and threatening world. Opening the conference in the East 
Room of The White House, Mrs. Clinton said, ``It is the arts and 
humanities that give us roots, that foster our civil society and 
democracy and create a universal language so that we can understand 
each other better as nations and human beings.''
    In her remarks, Secretary Albright declared that we were assembled 
``for the first--but I hope not the last'' such conference. As it turns 
out, it was the first and last, and I would hope that similar, cultural 
diplomacy summits be held at the highest level--events involving 
international leaders in culture, government and the arts that can 
reach millions though global media and the World Wide Web. Too few 
Americans know about the importance of public diplomacy; we need to 
tell its story.
    Conducting effective public diplomacy is more difficult today than 
it was prior to 9/11, when we launched the State Department program. We 
must, of course, ensure the safety and security of Foreign Service 
officers. In some countries, it takes exceptional fortitude and courage 
for a diplomat to work beyond embassy walls. An ambitious program to 
construct and modernize embassies, begun, I believe, under Secretary of 
State Powell, aims to build embassies that are safe, functional, and 
able to advance our diplomatic mission. In some cases, however, new 
embassies have been relocated outside major cities, where access to 
them is limited. Security and cost concerns require limitations, but we 
must do everything we can to see that our embassies are as open to the 
public as they can be, and not remote from urban centers.
    In some countries, our diplomatic missions have set up small, 
unclassified posts that consist of a single Foreign Service officer, 
who wears many hats, assisted by one or two host national staff. These 
American Presence Posts, or APPs, operate in cities distant from the 
embassy and engage in a full range of person-to-person diplomacy--
public relations, trade and commercial affairs, liaisons with local 
government, and so on. Security is always an issue; APPs cannot operate 
everywhere. But they are a strong public diplomacy asset. Similarly, 
some embassies are establishing ``American Corners,'' spaces that offer 
the public access to American books, DVDs, CDs, informational materials 
and the Internet. Operating in institutions such libraries or 
universities and staffed by a person from the host institution, 
American Corners are another good way to engage and serve foreign 
publics. Virtual Presence Posts, which offer Internet connectivity to 
the public, also are being used increasingly as a diplomatic tool.
    These programs and others like them should be replicated as much as 
possible, just as the cultural, educational and exchange programs 
sponsored by the Office of Public Diplomacy should be allowed to grow 
significantly. Our country needs to invest in these proven, public 
diplomacy programs on a major scale, and our government and its leaders 
should do a better job of informing the American people about the need 
to strengthen public diplomacy and its role in our foreign affairs.

    Senator Kaufman. Thank you.
    Ms. Hughes.

 STATEMENT OF HON. KAREN P. HUGHES, FORMER UNDER SECRETARY OF 
   STATE FOR PUBLIC DIPLOMACY, WORLDWIDE VICE CHAIR, BURSON-
                     MARSTELLER, AUSTIN, TX

    Ms. Hughes. Thank you, Mr. Chairman. Thank you also for 
honoring us on the floor also. Thank you for your many, many 
years of service and passionate advocacy for public diplomacy 
and especially our international broadcasting. You've been a 
real champion for our efforts.
    Thank you.
    Let me start by saying that the 2\1/2\ years that I spent 
as Under Secretary were among the most challenging and 
difficult, yet in the end among the most rewarding, of my 
entire career. Working with an outstanding team of foreign and 
civil service officers and public diplomats across the world, 
we were able to make a number of significant changes and put in 
place new programs, most of which are being carried on by the 
current administration. Much more needs to be done and I thank 
you for the opportunity to share some thoughts about that 
today.
    People often talk about public diplomacy in the context of 
opinion polls and, while we all want to be liked, I believe to 
view public diplomacy only in the context of an international 
popularity contest is a fundamental misunderstanding. America's 
engagement with foreign publics is actually a vital foreign 
policy and national security priority that seeks to promote our 
national ideals and interests, to undermine those of our 
enemies, and to foster understanding by engaging in dialogue 
and listening with respect to the views and opinions of others.
    When I took office, a strategic plan for U.S. public 
diplomacy did not exist. We worked through an interagency 
process to develop one and put in place three strategic 
imperatives which I believe remain vital today: First, that 
America must offer a positive vision of hope and opportunity 
rooted in our most basic values, which are not merely American, 
but are universal human rights--liberty, justice, the rule of 
law, rights for women and other minorities, a fundamental 
belief in the dignity and worth of every person.
    Second, public diplomacy should work to isolate and 
discredit
al-Qaeda and other violent extremists and undermine their 
attempt to appropriate religion to their cause.
    And third, to nurture--public diplomacy should work to 
nurture common interests between Americans and people of 
different cultures and countries across the world.
    I believe you can put most U.S. public diplomacy activities 
into four broad categories: our communications efforts; our 
education and exchange programs, which are the heart of public 
diplomacy; what I call the deeds of diplomacy, and these are 
the concrete things that our country does in the areas of 
education and health and economic development to improve 
people's lives; and finally, our international broadcasting, 
which now reaches 171 million people across the world with 
accurate and objective news and information.
    I'll talk a little about each of those areas. In the area 
of communications, with the explosion of media channels across 
the world today's ambassadors and diplomats must be trained and 
empowered to speak on behalf of our country and represent us on 
those foreign media channels. I found the bilateral setup of 
the State Department was often counterproductive to our 
communications efforts, particularly when dealing with regional 
networks like Al Jazeera that reach broad audiences across an 
entire region.
    I remember meeting with an ambassador. He told me Al 
Jazeera was by far the No. 1 source of news and information 
influencing people in his country, yet they weren't 
headquartered there, so he had no personnel or strategy to deal 
with them, really no capability to push back. We set up 
regional media hubs as a result and put language-qualified 
communicators in them whose daily job it was to go out and 
communicate and advocate for our U.S. Government policies. I 
believe we need more of this as we now have more and more 
journalists who increasingly are viewing us on a regional 
basis, our policies toward a certain region of the world, 
rather than individual countries.
    We also need better language training. Most of State's 
training teaches officers to be able to engage in conversation 
in a foreign language, but to be able to conduct an interview 
on television under often hostile questioning you need far 
greater language skills, and we need many more effective 
spokespeople to be able to communicate on television.
    I believe the Under Secretary for Public Diplomacy also has 
to be more involved in the assignment of State Department 
personnel. I needed Arabic speakers and I found that Arabic 
speakers were often in non-Arabic speaking countries and I had 
no ability to move them to the locations where I needed them. 
The Under Secretary also needs flexibility to move people in 
order to respond to urgent world events, such as what happened 
in the aftermath of 9/11.
    Our communications also have to be two-way. We need to do 
more listening, and to help us do that I started a new 
broadcast center to monitor the international media and produce 
a daily summary of what they were saying about our policies, to 
inform our policymakers, and then also provide our U.S. 
Government position in response, to help our ambassadors and 
military commanders and others around the world know what our 
country's position was on those issues that were driving news.
    We engaged on the Internet in a preliminary fashion. We 
assigned several officers to start blogging and get on the 
blogs and begin to correct misunderstandings and 
misrepresentations and accurately present our policies. We made 
a concerted effort to communicate that al-Qaeda's attacks most 
often killed fellow Muslims. It's vitally important, I think, 
that our communications strategies counter the extensive 
communications being carried out by extremists, largely on the 
Internet.
    On education and exchange programs, during my tenure I 
dramatically expanded English language training. I found it was 
a skill that young people across the world want because it im-
proves their opportunities in life, plus it allows us to reach 
a much younger demographic of 8-to-14-year-olds. We started 
programs teaching English language. It also exposes them to a 
wider body of knowledge and of course put them in contact face 
to face with Americans. Many of them had never met a real-life 
American before, and I found that the reaction was almost 
universally positive.
    We almost doubled participation in our education and 
exchange programs and worked to make them more strategic, 
focused on those who have a wide circle of influence, such as 
clerics and journalists and others who are influential in 
shaping the opinions of a wider audience.
    A survey of our ambassadors rated the international visitor 
program No. 1 among all public diplomacy programs because of 
its ability to influence the future leaders of the world. 
Bringing them here, letting them see America for themselves, is 
enormous intellectual capital for our country.
    We also worked with university leaders to reverse the trend 
of decline in student visas that had occurred after 9/11 and 
the number of students after we reversed that decline has now 
been growing and setting records, I believe, for the last 
several years.
    We began using technology to expand the impact of our 
exchanges, encouraging participants to blog about their 
experiences, giving them a camera to make YouTube videos. I 
believe much more needs to be done in this area to maximize the 
impact of our exchanges, perhaps through documentaries, other 
ways of broadcasting them to a wider universe.
    I also worked to each out through areas of mutual interest 
such as sports and music that transcend any political or policy 
differences.
    Now, most of these programs build relationships in 
understanding over the long term, so I understand, with a lot 
of competing interests, it's often difficult to fund them. But 
I also believe they're vital and they must be expanded in a 
world that is increasingly global and interconnected.
    Collaborative programs such as the breast cancer initiative 
that we started with women in the Middle East I believe have a 
lot of potential, because they do more than just share 
expertise on a health issue. They also teach women to network, 
to begin to stand up for themselves, to more fully participate 
in their societies. I think we should actively seek ways to 
partner with people in other countries on areas of mutual 
interest that both improve people's lives and show the great 
compassion of America. Teacher training, hospital ships, the 
AIDS initiative in Africa, these are not just development 
programs; they are also powerful public diplomacy tools that 
communicate who we are, and we must view them that way.
    In international broadcasting, we worked to improve our 
television offerings. As you know, Voice of America and many of 
our other broadcasts started as radio programs. Yet now most of 
the world gets its news on television. Members of the BBG, 
including you, Senator Kaufman, had the foresight to start a 
new Arabic television and radio station before I arrived. I 
worked with you to get additional funding for a new midday show 
for women's programs. Those two channels, Alhurra and Sawa, now 
have a weekly combined audience of 35 million people--a channel 
where we had none before.
    I just returned from Dubai, where I announced the results 
of the most comprehensive survey ever done of Arab youth--2,000 
in-person interviews conducted by my company and its partner 
polling firm. It highlighted the crucial importance of 
television. I know the Internet--a lot is happening on the 
Internet, but television is also a dramatic and powerful tool. 
Seventy-eight percent of the Arab youth we surveyed said they 
get their news and information from television, and 
overwhelmingly they listed it as their No. 1 leisure pastime. 
Sixty-six percent said television was their first choice for 
leisure activities.
    Let me tell you why I worry about that for our national 
interest. If you see something on television, you tend to give 
it more credibility. You've seen it with your own eyes. Yet the 
view is often quite misleading. I heard people around the world 
talk about the sex and violence that they saw on American 
movies and the soap operas and shows.
    I'll close with a story from a young man I met in China who 
had just returned from his first trip to America. I asked him 
what surprised him. He said he was surprised by how friendly 
Americans were, by how much they cared about their families, 
and by how many of them went to church or synagogue or mosque. 
I told him: I don't get that, because if you take a survey of 
my fellow Americans most of them, not all of them but most of 
them, will say their family and their faith are what's most 
important to them. So what's the disconnect?
    His reply has haunted me ever since. He said: America is 
not the way it looks on television. A lot of people are getting 
their views of our country--one of the biggest changes in 
communications in the world is that mass audiences are now 
seeing television in ways they never did before, and the view 
is often not a pretty picture.
    I believe it calls for continued investment in 
international broadcasting, a lot more private sector 
partnerships to produce documentaries, perhaps reality shows, 
something to offer a more accurate picture of what our country 
is truly like.
    Let me just quickly state--I see I'm out of time--a few 
recommendations. We do need more accessible spaces with 
diplomats occupying them. We cannot conduct public diplomacy 
while walled off in embassy fortresses. We have to encourage 
more conversations and recognize that's going to mean less 
control. When you have a call-in show or an Internet chat, you 
may not like everything that's being said, but we have to 
support the conversation.
    I urge you to confirm board members of the BBG so that they 
can continue to improve our international broadcasting.
    Finally, public diplomacy needs an advocate at the White 
House. I regularly met with President Bush. I sat in on all the 
Secretary of State's policy meetings. It was important, but it 
wasn't enough. It's very hard from someplace besides the White 
House to get the resources, the personnel, the authority that 
you need. I believe there has to be someone there who comes to 
work thinking about foreign audiences and coordinating with the 
Under Secretary, because we have to do a lot more thinking and 
planning about our conversations around the world.
    So thank you so much for your time.
    [The prepared statement of Ms. Hughes follows:]

 Prepared Statement of Hon. Karen Hughes, Worldwide Vice Chair, Burson-
                         Marsteller, Austin, TX

    Mr. Chairman, members of the committee, Senator Kaufman--with whom 
I had the great pleasure of working on the Broadcasting Board of 
Governors and who is a great champion of public diplomacy and 
particularly international broadcasting--thank you for inviting me here 
today.
    Let me start by saying the 2\1/2\ years I spent as Under Secretary 
were among the most challenging and difficult, yet in the end some of 
the most rewarding, of my entire career.
    Working with an outstanding team of career foreign and civil 
service officers and public diplomats around the world, we were able to 
make a number of significant changes. Much more needs to be done and I 
want to outline some thoughts about that today.
    People often talk about public diplomacy in the context of the most 
recent opinion poll but to view public diplomacy as an international 
popularity contest is a fundamental misunderstanding.
    America's engagement with foreign publics is actually a vital 
foreign policy and national security priority that seeks to promote our 
national ideals and interests and to undermine our enemies.
    When I took office, a strategic plan for U.S. public diplomacy did 
not exist. We worked in an interagency process to develop one and put 
in place three strategic imperative, which I believe remain vital 
today.
    First, that America must offer a positive vision of hope and 
opportunity rooted in our most basic values, values which are not 
merely American, but universal human rights--liberty, justice, the rule 
of law, rights for women and other minorities, a fundamental belief in 
the dignity of every individual.
    Second, to isolate and discredit al-Qaeda, and other violent 
extremists, and undermine their attempt to appropriate religion to 
their cause.
    Third, to nurture common interests between Americans and people of 
different countries across the world.
    You can put most U.S. public diplomacy activities into four broad 
categories:
          (1) Communications;
          (2) Education and exchange programs (the heart of public 
        diplomacy);
          (3) The Deeds of Diplomacy (concrete things we do in areas 
        such as education, health and economic development that make 
        such an impact on people's lives); and
          (4) International broadcasting (which now reaches 171 million 
        people across the world).

                             COMMUNICATIONS

    With the explosion of media channels across the world, today's 
ambassadors and public diplomats have to be trained and effective 
communicators and empowered to speak on behalf of our country.
    I found the bilateral setup of the State Department is often 
counterproductive, particularly when dealing with regional networks 
like Al Jazeera that reach broad audiences across an entire region. I 
remember meeting with an ambassador;
Al Jazeera was by far the No. 1 source of news and information in his 
county yet they weren't headquartered in his country so he had no 
strategy or personnel to deal with them. We set up hubs and put 
language qualified communicators there. The daily job of those 
communicators was to get out and explain and advocate our policies.
    We need better language training of our personnel. Most of State's 
training teaches officers to be able to engage in conversations, but 
not television interviews. We need effective spokespeople who are able 
to communicate on television in key languages.
    Public diplomacy has to be more involved in assigning State 
Department personnel and have the flexibility to move people to respond 
to urgent needs or world events.
    Communications have to be two-way. It's imperative to put in place 
a unit to monitor international media, listen to what they are saying 
about U.S. policies, provide U.S. Government's position in response, 
etc. Secretary Clinton's team has kept up with that practice and I 
believe it's vitally important.
    And I'd like to mention two other areas. One, we were more engaged 
on Internet and put in place a program blogging in Arabic, Farsi, Urdu 
to correct misrepresentations and undermine the work of extremists. 
Two, there was a concerted effort to communicate that al-Qaeda's 
attacks often killed fellow Muslims. These are vitally important 
communications strategies that undermine extensive communications of 
extremists.

                         EDUCATION AND EXCHANGE

    Education and exchange programs are the heart of public diplomacy. 
During my tenure we dramatically expanded English language training; 
it's a skill young people across the world want because it gives them 
opportunities, and also gives them access to a wider body of knowledge 
and brings them in contact with an American. We are also allowed to 
reach much younger demographics (8-4 year olds) with in-country 
programs to learn English.
    Doubled participation in exchange programs worked to make more 
strategic and focused on those who have a wide circle of audience and 
influence such as clerics and journalists, and also women who have a 
rippling impact on societies.
    We worked with university leaders and reversed the trend of decline 
in student visas, that had occurred after 9/11, and the number of 
students has been growing and setting new records ever since.
    We began using technology to expand the impact of exchanges, 
encouraging them to blog about their experience, giving them a camera 
and asking to make YouTube videos. However, much more needs to be done 
in this area to maximize the impact of exchanges.
    Also, the act of citizen dialogue: We sent Muslim Americans 
overseas to engage with Muslim communities through sports diplomacy, 
music, and culture. These are spaces where Americans can come in 
contact with foreign publics.
    Most of these programs that build relationships and understanding 
over the long term are hard to fund, but they are vital and must be 
expanded in a world that is increasingly interconnected.

                           DEEDS OF DIPLOMACY

    Collaborative programs such as a breast cancer initiative with 
women in Middle East does more than share expertise in a way that 
improves women's health--it also teaches them to learn to network, to 
stand up for themselves, to more fully participate in their societies.
    I believe there are many such ways to partner on issues of mutual 
interest in ways that improves people's lives and shows the heart and 
compassion of our country.
    The USNS Comfort and the AIDS initiative in Africa are examples of 
things that are not just development, they are also public diplomacy 
that communicate who we are and we must view them that way.

                       INTERNATIONAL BROADCASTING

    Improved television offerings: Members of the Broadcasting Board of 
Governors had had the foresight to start new Arabic television and 
radio stations before I arrived. We worked to get additional funding 
and provide relevant programming such as a new midday show, women's 
programs and others that build value. They now have a weekly audience 
of 35 million.
    I just returned from Dubai where I announced the results of the 
most comprehensive survey every done with Arab youth. The survey 
compiled 2,000 in person interviews and was conducted by my company 
Burson-Marsteller. Findings from the survey showed Arab youth are 
increasingly connected: Three out of four have mobile phones, three in 
five use the Internet at least once a day. The survey also highlighted 
the crucial importance of television in the lives of Arab youth.
    Seventy-eight percent said they get their news and information from 
television. Overwhelmingly 66 percent said their favorite leisure 
pastime is watching television.
    Let me tell you why I worry about that for our national interests; 
if you see something on television, you tend to give it more 
credibility because you've seen it with your own eyes. Yet the view is 
often quite misleading. I'll close with a story from a young man I met 
in China, who had just returned from his first trip to America. I asked 
him what surprised him. He said he was surprised by how friendly 
Americans were, how much they cared about their families and how many 
of them went to church or synagogue or mosque.
    I told him that if you take a survey of Americans and ask what's 
most important to them, not all of them, but most will say family and 
faith--yet he just told me that surprised him, so I asked: What's the 
disconnect. His reply has haunted me ever since: America, he said, is 
NOT the way it looks on television.
    There should be calls for continued investment in international 
broadcasting, and additionally a lot more private sector partnerships 
(documentaries, etc.)

                          SOME RECOMMENDATIONS

    We need changes in personnel training and deployment at State, more 
in-depth language training of spokesmen in key languages and maybe we 
need to keep those people in one region of the world, rather than 
transferring them around. This will strengthen public diplomacy within 
the regional bureaus, which is the power structure at State, and give 
the Under Secretary greater authority to assign personnel and allocate 
resources.
    We need more accessible spaces and expanded American corners. We 
need Americans staffing them; we cannot conduct public diplomacy while 
walled off in embassies.
    We have to encourage more conversations and recognize that's going 
to mean less control. Internet chat means someone may not like what is 
said, a call-in show means someone may not agree with all the opinions 
expressed. Al-Qaeda is a one-way communicator; we have to be a two-way 
facilitator.
    We need to confirm board members at the Broadcasting Board of 
Governors and continue to improve international broadcasting.
    Public diplomacy needs an advocate at the White House. I regularly 
met with, and saw, President Bush and he put me in the lead of 
interagency. I was in all of Secretary Rice's highest level policy 
meetings and all that was important but it was still very hard to get 
it done. We need someone at White House who cares and comes to work 
every day thinking about this and coordinating with the Under Secretary 
and that's hard because the White House tends to focus on the domestic 
audience--after all, that's who elects the President. But for our 
national interests we have to do a lot more thinking and planning about 
our conversations and interactions with publics across the world.

    Senator Kaufman. Thank you. I'd just like to say, because 
it's interesting in terms of the complexity of this problem, 
and that is I was in Guinea right before I left the 
Broadcasting Board of Governors 3 years ago. The No. 1 
syndicated TV show in Guinea was ``Baywatch,'' the No. 2 show 
was ``Jerry Seinfeld''--not ``Jerry Seinfeld''; ``Jerry 
Springer.''
    Jim.

STATEMENT OF HON. JAMES K. GLASSMAN, FORMER UNDER SECRETARY OF 
STATE FOR PUBLIC DIPLOMACY, EXECUTIVE DIRECTOR, GEORGE W. BUSH 
                     INSTITUTE, DALLAS, TX

    Mr. Glassman. Thank you, Mr. Chairman, members of the 
committee.
    Senator Kaufman, you and Vice President Biden, more than 
any other individuals in recent years, have advanced the cause 
of public diplomacy as champions of international broadcasting. 
Thank you for your long service to your country.
    Thank you also for your kind words on the floor about the 
three of us. I benefited enormously from the work of the four 
women who preceded me, and especially my immediate predecessor, 
Ambassador Hughes. You can tell from her remarks she 
accomplished a great deal in 2\1/2\ years.
    The hearing asks us to address the future of public 
diplomacy. That future in my view is in doubt. Why? Because 
public diplomacy today is not being taken seriously enough as a 
tool of national security. Public diplomacy needs to focus on 
key foreign policy problems, not merely on more vague 
improvements in the far-off future. It needs to be primarily an 
activity of national security, not of public relations. It 
needs to be mobilized and sent into battle to win the 
ideological conflicts of our time.
    Secretary of Defense Robert Gates has said: ``Over the long 
term, we cannot kill or capture our way to victory. Nonmilitary 
efforts, tools of persuasion and inspiration were indispensable 
to the outcomes of the defining struggle of the 20th century. 
They are just as indispensable in the 21st century and perhaps 
even more so.''
    The Secretary is right, and one would expect his words to 
be heeded at a time when so many have lauded soft or smart 
power. But in fact, tools of persuasion and inspiration are not 
being considered indispensable. Far from it.
    Here then are some recommendations for a more effective 
public diplomacy. First, make public diplomacy a top priority. 
The entire government should know that the President views 
public diplomacy as a critical part of America's overall 
national security strategy.
    Second, make a distinction between what I call strategic 
public diplomacy, that is public diplomacy with clear 
objectives that can be achieved in a definable period, such as 
goals in a war of ideas against violent extremists like al-
Qaeda, and long-term ongoing public diplomacy, which may be 
shaped strategically, with emphasis on exchanges with Muslim-
majority nations, for example, but which is more general in its 
effects.
    Third, public diplomacy needs to be more about the rest of 
the world and less about us. As President Obama has said 
several times, we should stress mutual interests and mutual 
understanding. We should find mutual interests even among those 
who don't like us at present. The default position in U.S. 
public diplomacy, getting people to like us better, has 
irresistible inertia. Certainly some public diplomacy 
activities can over the long run improve foreigners' 
understanding of the United States, our people, our values, and 
our policies, and we should vigorously pursue those activities, 
such as exchanges. But in addition to such activities, the 
tools of strategic public diplomacy must be applied toward 
urging goals for which likability means very little.
    For example, in Pakistan United States favorability has 
dropped in the past year and is in the teens. But according to 
Pew, by a margin of 47 percent to 24 percent Pakistanis support 
United States missile strikes against leaders of extremist 
groups. What can public diplomacy do in Pakistan? Working 
quietly, it can help the Pakistani Government reinforce the 
notion that the violent extremist threat is real and that this 
is Pakistan's war.
    Fourth, institute a strong interagency structure and 
process led by an official with a close connection to the 
President. During the Bush administration that official was the 
Under Secretary of State for Public Diplomacy and Public 
Affairs. But other structures are possible.
    Fifth, launch an interagency program quickly to show that 
public diplomacy can achieve national security goals. Iran 
should be the immediate focus. Here we are squandering a great 
opportunity. Our objective is an Iran free of nuclear weapons. 
Two routes to achieving that objective appear in my view 
unlikely: armed conflict or successful official diplomacy. But 
public diplomacy can work, mainly because of the brave 
opposition movement that developed after the June elections.
    We could help by providing substantial moral, intellectual, 
and material support for the Green Movement. The great fear of 
the Iranian regime is that a nonviolent civil resistance in the 
form of a color movement, like those in the states of the 
former Soviet Union, will gain authority and legitimacy and 
ultimately power through democratic means. The regime is right 
to be afraid, but we are wrong to ignore this opportunity.
    Sixth, promote the successes and enhance the understanding 
of the function and purpose of the Broadcasting Board of 
Governors and the entities it oversees, such as Voice of 
America, Radio Free Europe-Radio Liberty, and Alhurra. Between 
2001 and 2009 the weekly audience of the BBG increased by 
approximately three-fourths. Nearly the entire increase 
occurred in languages of strategic importance, such as Arabic, 
Farsi, and Urdu. Particularly remarkable is the Arabic Service. 
Before its launch just 7 years ago, the Arabic audience for the 
BBG through Voice of America radio was only 2 or 3 million. 
Today the total audience, that is listeners and viewers who 
tune in at least once a week on radio or TV, is 35 million. 
Alhurra TV and Radio Sawa have a weekly audience of 71 percent 
of Iraqis and 61 percent of Syrians. VOA and Radio Farda are 
reaching more than one-fourth of Iranians each week, and BBG 
networks have large audiences in Pakistan and Afghanistan.
    Senator Kaufman, in reference to your question earlier 
about the firewall, my experience has been that the firewall 
between State and other government agencies on the one hand and 
the journalists of the BBG on the other has worked very well. 
You have been the great guardian of that firewall.
    Seventh, expand what I call Public Diplomacy 2.0, using 
technology to facilitate and convene a broad and deep global 
conversation in which we can more effectively influence and 
inform. At the same time, put teeth into Secretary Clinton's 
affirmation that the United States supports open global 
communications. One step would be to challenge outrageous 
Iranian jamming of satellite broadcasts by VOA and BBC. As the 
head of BBC's Farsi Service put it, ``This is a rogue 
government jamming international signals. How will the West 
stop Iran from getting nuclear weapons if we can't deal with 
this?'' And we are not dealing with it right now.
    Eighth, create a new narrative to counter the pervasive one 
that holds that the United States is out to destroy Islam and 
replace it with Christianity. The counternarrative would 
accurately portray conflicts within Muslim societies that are 
working toward resolution: the attempt of a radical, violent 
group to hijack a religion, the struggle for democracy and the 
rights of women, the conflict between the Iranian regime and 
Arab societies. These are real conflicts. They are intra-Muslim 
conflicts, and I think that the right side is going to win and 
it will be a glorious victory. But we need to recognize that 
that is the most important narrative that faces Muslim 
societies today.
    Ninth, establish a pervasive culture of measurable results. 
All public diplomacy programs must be assessed and evaluated to 
see how well they move the needle. Measuring can be difficult 
and expensive, but without it we can't tell whether work is 
succeeding or failing.
    Finally, although it occurred in June 2007, almost 3 years 
ago, my own confirmation was the last one voted by the Senate 
for a BBG governor. Natural attrition has left the BBG with 
only four governors plus the Secretary of State, a total of 
five, which is the minimum for a quorum. The BBG is no ordinary 
board, as you know, Senator Kaufman.
    Its governors serve as a collective chief executive office 
for this critical organization. The lack of action over the 
past few years on confirmations of governors is a sad 
manifestation of the overall standing of public diplomacy among 
too many policymakers. We can't wait.
    I ended my testimony before this committee in January 2008 
with the following sentence, which I believe bears repeating: 
``The task ahead is to tell the world the story of a good and 
compassionate nation and at the same time to engage in the most 
important ideological contest of our time, a contest that we 
will win.''
    Thank you.
    [The prepared statement of Mr. Glassman follows:]

Prepared Statement of James K. Glassman, Executive Director, George W. 
                       Bush Institute, Dallas, TX

    Mr. Chairman, members of the committee, Senator Kaufmann, you and 
Vice President Biden, more than any other individuals in recent years, 
have advanced the cause of public diplomacy as champions of 
international broadcasting. Thank you for your long service to your 
country.
    I had the unique honor myself of serving, far more briefly, in two 
public diplomacy positions: First, as chairman of the Broadcasting 
Board of Governors, where I was a colleague of the future Senator 
Kaufmann. The BBG oversees all nonmilitary taxpayer-funded U.S. 
international broadcasting, including radio, television, and Internet 
in 60 languages across more than 100 countries. Then, as Under 
Secretary of State for Public Diplomacy and Public Affairs, in charge 
of engagement with foreign publics.
    This hearing asks four of us who have served or are serving in the 
latter post to address the future of public diplomacy. That future, in 
my view, is in doubt.
    While the men and women who practice public diplomacy are working 
diligently and courageously, they lack what the Djerejian Group, a 2003 
commission, called the proper ``strategic direction'' \1\ to contribute 
effectively toward the achievement of the American interest.
---------------------------------------------------------------------------
    \1\ ``Changing Minds, Winning Peace,'' report of the Advisory Group 
on Public Diplomacy for the Arab and Muslim World, submitted to the 
Committee on Appropriations, U.S. House of Representatives, Oct. 1, 
2003, p. 8.
---------------------------------------------------------------------------
    In short, here is the problem with public diplomacy: It is not 
today being taken seriously as a tool of national security by 
policymakers. Will it be in the future? Perhaps only in a desperate 
response to a terrible crisis. Such delay is unacceptable.
    In my testimony today, I will describe what a serious public 
diplomacy--what I call ``Strategic Public Diplomacy''--looks like. In 
the second half of the last administration, President Bush and the 
leadership of the State Department, the Pentagon, the National Security 
Council, the BBG, and the intelligence community--with support from a 
handful of Members of Congress and staffers--were succeeding in 
developing this new vision of public diplomacy and putting it into 
practice, especially to counter violent extremism.
    Today, that effort needs to be sustained, renewed, and invigorated. 
There are areas in the world where Strategic Public Diplomacy is not 
merely one tool, but, in fact, the best tool, for achieving America's 
interests. One of those areas is Iran, which I will address today.
    Public diplomacy needs to be sharp, not flaccid. It needs to focus 
on key foreign policy problems, not merely on vague, feel-good 
improvements in the far-off future. It needs to be primarily an 
activity of national security, not of public relations. It needs to be 
mobilized and sent into battle to win the ideological conflicts of our 
time.
    During the cold war, with institutions like Radio Free Europe, the 
Congress of Cultural Freedom, the publication Problems of Communism, 
educational and cultural exchanges, and the U.S. Information Agency, 
the United States became very effective at public diplomacy. Public 
diplomacy played an essential role in defeating communism.\2\ But after 
the Berlin Wall came down, our arsenal of persuasion was dismantled.
---------------------------------------------------------------------------
    \2\ See many examples, including this speech last year by Yale 
Richmond, a retired Foreign Service officer: http://
whirledview.typepad.com/whirledview/2009/12/cultural-exchange-and-the-
cold-war-how-the-west-won.html.
---------------------------------------------------------------------------
    ``At a critical time in our Nation's history,'' said the report of 
the Advisory Group on Public Diplomacy for the Arab and Muslim World, 
``the apparatus of public diplomacy has proven inadequate . . . First 
and foremost, public diplomacy requires a new strategic direction, 
informed by a seriousness and commitment that matches the gravity of 
our approach to national defense and traditional state-to-state 
diplomacy.'' \3\ True in 2003; still true today.
---------------------------------------------------------------------------
    \3\ ``Changing Minds, Winning Peace,'' pp. 8 and 13. I served on 
this panel, created by Congress and chaired by Ambassador Edward 
Djerejian.
---------------------------------------------------------------------------
            ``we cannot kill or capture our way to victory''
    Here is the best definition of public diplomacy: understanding, 
engaging, informing and influencing foreign publics with the goal of 
achieving the national interest of the United States of America. Of the 
four activities, the most important is ``influencing.'' Public 
diplomacy is a means, not an end. It is a particular set of tools and 
approaches that help us influence foreigners in order to achieve goals 
that the United States desires.
    During the Bush administration, the relevant ends were keeping the 
United States safe and promoting freedom--ends that are linked.
    Today, the greatest threats to safety and freedom come from violent 
extremists and their supporters, mainly using terrorism to try to 
achieve their aims.
    As Secretary of Defense Robert Gates said, ``Over the long term, we 
cannot kill or capture our way to victory. Nonmilitary efforts--tools 
of persuasion and inspiration--were indispensable to the outcome of the 
defining struggle of the 20th century. They are just as indispensable 
in the 21st century--and perhaps even more so.'' \4\
---------------------------------------------------------------------------
    \4\ http://www.defense.gov/Speeches/Speech.aspx?SpeechID=1262.
---------------------------------------------------------------------------
    In keeping with that belief, President Bush in 2006 designated the 
Under Secretary of State for Public Diplomacy as the lead official 
across government in strategic communications--which is a rubric that 
includes public diplomacy as well as other activities, including covert 
and kinetc ones, that attempt to communicate a specific, intentional 
message to the rest of the world. The Secretary of State and I believed 
that, given my own background and the nature of the threats, this role 
should be my primary one. Our focus was countering violent extremism by 
engaging in a ``war of ideas,'' or what we also termed ``global 
strategic engagement.''
    Drawing on the work of my predecessor, Karen Hughes, I built an 
interagency structure that allowed visibility into the strategic 
communications work being done in other parts of government, including 
the military, the intelligence community, the foreign assistance 
apparatus, Treasury, and elsewhere.
    Beyond visibility, we were able, working with the National Security 
Council, to assign specific agencies to perform specific duties in 
pursuit of clear strategic goals. I also created a small interagency 
group called the Global Strategic Engagement Center, or GSEC, with a 
State Department director and members from the Department of State and 
the intelligence community, to handle day-to-day operations.
    By the time I left government, this structure was working well, 
with State at the top of it, as it should be. We received superb 
cooperation, both from the military and from the intelligence 
community. Yes, the Department of Defense had more resources for 
strategic communications activities, but DOD worked in concert with us 
and looked to us for leadership.
    We tried to achieve our war-of-ideas goals in two ways: First, by 
pushing back and undermining the ideology behind the violent extremism 
while at the same time explaining and advocating free alternatives and, 
second, by diverting young people from following a path that leads to 
violent extremism. What all terrorist groups have in common, in fact, 
is the exploitation of vulnerable young people, who are isolated and 
indoctrinated and become the shock troops.
    In both of these endeavors--undermining and diverting--Americans 
themselves are rarely the most credible actors and voices. Much of what 
we did was encourage others. For example, we supported a global 
organization of female family members of victims of violent extremism 
and supported another network, based in Europe, of Muslim 
entrepreneurs.
    In Afghanistan, with the most meager resources, we helped stand up 
an Afghan-led media center in Kabul. In October 2008, the Taliban 
stopped a bus at Maiwand, pulled off 50 passengers and beheaded 30 of 
them.\5\ The media center's leaders immediately brought together 300 
Afghan religious leaders who issued a statement condemning the action 
and calling it anti-Islamic. The effort led to widespread anti-Taliban 
protests.\6\
---------------------------------------------------------------------------
    \5\ http://www.nytimes.com/2008/10/19/world/asia/19iht-
19afghan.17083733.html.
    \6\ http://www.memri.org/report/en/0/0/0/0/0/0/2892.htm.
---------------------------------------------------------------------------
    (I am happy to note that the new Afghanistan and Pakistan Regional 
Stabilization Strategy calls for an expansion of the Afghan Government 
Media and Information Center and the establishment of 16 provincial 
satellite offices.\7\)
---------------------------------------------------------------------------
    \7\ ``Afghanistan and Pakistan Regional Stabilization Strategy,'' 
as updated Feb. 2010, Office of the Special Representative for 
Afghanistan and Pakistan, U.S. Department of State.
---------------------------------------------------------------------------
    We often worked in partnership with private-sector organizations, 
deploying small amounts of money, in the low hundreds of thousands of 
dollars. A good example was providing funds to the International Center 
for Religion and Diplomacy, a group that has been working for years to 
enhance education (to include academic subjects, plus the teaching of 
universal values such as tolerance and critical thinking) in Pakistan's 
madrassas, often breeding grounds of terrorists.\8\ The ICRD has so far 
trained over 2,000 madrassa leaders.
---------------------------------------------------------------------------
    \8\ http://www.icrd.org/.
---------------------------------------------------------------------------
    We also funded ``Life After Death,'' a documentary by Layalina 
Productions, a U.S.-based nonprofit, on the journey of families of 9/11 
victims as they commiserate with families of terrorism victims in 
Spain, Jordan, and Egypt.\9\ The documentary was first aired last fall 
on Al Arabiya News Channel throughout Arab-speaking nations.
---------------------------------------------------------------------------
    \9\ http://www.layalina.tv/productions/lifeafterdeath.html.
---------------------------------------------------------------------------
    All of these efforts were aimed at specific goals. We wanted, for 
example, to show the widespread and senseless suffering caused by 
violent extremists, especially in their attacks against fellow Muslims. 
We also wanted to find ways--such as through encouraging 
entrepreneurship, improving madrassas, or expanding an excellent 
English-teaching program that teaches values as well--to divert young 
people from a path to terrorism.
                 ``mutual interest and mutual respect''
    We took our direction from the National Strategy for Combating 
Terrorism of 2006, which stated: ``In the long run, winning the War on 
Terror means winning the battle of ideas.'' \10\ So our mission then 
and, it is my hope, today is to use the tools of ideological 
engagement--words, deeds, and images--to create an environment hostile 
to violent extremism.
---------------------------------------------------------------------------
    \10\ http://georgewbush-whitehouse.archives.gov/nsc/nsct/2006/.
---------------------------------------------------------------------------
    What do these efforts in strategic public diplomacy have to do with 
improving America's image abroad? Very little, in an immediate sense. 
The United States itself is not at the center of the war of ideas. 
Rather, as I will explain a bit later, the United States is being 
affected by conflicts within Muslim societies, which themselves are 
ground zero for this enormous struggle, which involves both ideology 
and violence.
    In his inaugural address, President Obama stated, ``To the Muslim 
world, we seek a new way forward, based on mutual interest and mutual 
respect.'' \11\ He repeated this powerful phrase in speeches in 
Istanbul and Cairo last year. We do indeed have mutual interest, even 
with people who may disagree with us on such policy matters as Iraq and 
the Israeli-Palestinian issue.
---------------------------------------------------------------------------
    \11\ www.whitehouse.gov/blog/inaugural-address.
---------------------------------------------------------------------------
    On the threat of violent extremism, we are absolutely on the same 
page as Muslim societies. As a result, even in countries where vast 
majorities say, even today, that they view the United States 
unfavorably--Jordan, Saudi Arabia, and Egypt, to name a few--our mutual 
interest in defeating the terrorist threat (and, I should add, in 
constraining the Iranian threat)--the United States can work 
cooperatively, using public diplomacy methods, to reach mutual 
strategic goals.
    Americans, for example, have a clear mutual interest with the 
Pakistanis, who, according to recent Pew Research surveys, view us more 
unfavorably than practically any other people (in fact, favorability 
dropped, to just 16 percent, between 2008 and 2009).\12\ We both want 
to defeat the Taliban and al-Qaeda for the sake of a stable, free 
Pakistan and a safer America. That interest can be achieved even if 
Pakistanis harbor animus toward Americans.
---------------------------------------------------------------------------
    \12\ For a more complete exposition of this subject, see my 
article, ``It's Not About Us,'' on For-
eignPolicy.com: http://www.foreignpolicy.com/articles/2009/09/01/
its_not_about_us?page=0,0.
---------------------------------------------------------------------------
    The latest Pew data reinforce this notion. By a margin of 63 
percent to 12 percent, Pakistanis support America's ``providing 
intelligence and logistical support to Pakistani troops fighting 
extremist groups. By 47 percent to 24 percent, Pakistanis even support 
U.S. ``missile strikes against leaders of extremist groups.'' What can 
public diplomacy do in Pakistan? Working quietly, it can help the 
Pakistani Government reinforce the notion that the violent extremist 
threat is real and that ``this is Pakistan's war.'' \13\
---------------------------------------------------------------------------
    \13\ President Zardari of Pakistan has made this statement many 
times, for example: http://www.memri.org/report/en/0/0/0/0/0/0/
2892.htm.
---------------------------------------------------------------------------
    Still, the default position in U.S. public diplomacy--getting 
people to like us better--has irresistible inertia. When in doubt, 
policymakers and practitioners turn to brand-burnishing. But the 
unresolved question is whether a better-liked America is one that can 
more easily achieve its national security goals. Certainly, some public 
diplomacy activities can, over the long run, improve foreigners' 
understanding of the United States, our people, our values, and our 
policies--and we should vigorously pursue those activities. But, in 
addition to such activities, the tools of Strategic Public Diplomacy 
must be applied toward urgent goals for which likeability means little.
    Much of the public diplomacy effort in the past has focused on our 
own image, on how we are seen by others. But today, in the war of 
ideas, our core task is not how to fix foreigners' perceptions of the 
United States but how to isolate and reduce the threat of violent 
extremism. In other words, it's not about us.

              ``AN OBSERVABLE BUT INTANGIBLE ATTRACTION''

    In all aspects of public diplomacy--both traditional and 
strategic--we require a new approach to communications, to the engaging 
and informing that lead to the influencing. We began to develop such an 
approach during my brief tenure, calling it Public Diplomacy 2.0. It is 
an approach that Secretary Clinton has embraced.\14\
---------------------------------------------------------------------------
    \14\ Secretary Clinton immediately supported the Alliance of Youth 
Movements and in January gave a speech on Internet freedom and met with 
high-tech executives on improving the use
of social media in public diplomacy: http://voices.washingtonpost.com/
posttech/2010/01/sec_
clinton_dines_high-tech_ti.html?wprss=posttech.
---------------------------------------------------------------------------
    The approach begins with research on America's image. We found 
three reasons for low favorability--differences with our policies, a 
lack of understanding of those policies and beliefs, and a perception 
that the United States does not respect the views of others, does not 
listen to them, or take them seriously. These last two subjects--lack 
of understanding by foreigners and lack of respect by us--cannot be 
addressed by preaching or by telling the world how wonderful we are. In 
fact, the technique of standing in one place and spraying a message 
widely to others is not very effective in today's world.
    A better way to communicate is through the generation of a wide and 
deep conversation. Our role in that conversation is as facilitator and 
convener. We generate this conversation in the belief that our views 
will be heard--even if U.S. Government actors are not always the 
authors of those views.
    This new approach takes advantage of new social networking 
technologies like Facebook and YouTube and Second Life, whose essence 
is multiple, simultaneous conversations, in words and pictures. And, in 
fact, the method of communication is itself a reflection of American 
values. The medium, as Marshall McLuhan said, is the message. We, as 
Americans, do not dictate. Rather, we believe that, in a free and open 
discussion, the best ideas will prevail, and we want to encourage the 
free expression of views, rather than drowning out words that disturb 
us.
    Joseph Nye, former dean of the Kennedy School of Government at 
Harvard, has written: ``If I am persuaded to go along with your 
purposes without any explicit threat or exchange taking place--in 
short, if my behavior is determined by an observable but intangible 
attraction--soft power is at work. Soft power uses a different type of 
currency (not force, not money) to engender cooperation--an attraction 
to shared values and the justness and duty of contributing to the 
achievement of those values.'' \15\
---------------------------------------------------------------------------
    \15\ Joseph S. Nye, Jr., ``Soft Power: The Means to Success in 
World Politics,'' PublicAffairs, 2004, p. 7.
---------------------------------------------------------------------------
    Public Diplomacy 2.0, endorsed at the highest levels of government 
during my tenure at the State Department, embodies Nye's description of 
soft power. Specifically, in 2008, our Education and Cultural Affairs 
Bureau, under the direction of Goli Ameri, an Iranian-American with 
experience as a technology executive, launched the first U.S. 
Government social-networking Web site. The site, ExchangesConnect,\16\ 
on the Ning platform, provides a forum around the topic of 
international exchanges.
---------------------------------------------------------------------------
    \16\ http://connect.state.gov/.
---------------------------------------------------------------------------
    The U.S. Government cannot control everything that goes on within 
this forum (indeed, during the fighting in Gaza, much of the comment on 
the site was in opposition to U.S. policy), and the lack of control 
naturally produces some anxiety. But we live in a world in which we 
have two choices: preach and be ignored, or convene a conversation and 
be heard--and, if our views are persuasive, have influence. 
ExchangesConnect is now running its second annual video contest, this 
one with the theme, ``Change Your Climate, Change Our World.'' Among 
the top 40 entries are videos from Egypt, Turmenistan, Cuba, and 
Vietnam.\17\
---------------------------------------------------------------------------
    \17\ http://connectcontest.state.gov/contests/change-your-climate-
change-our-world/entries/top_
entries.
---------------------------------------------------------------------------
    In 2008, the Bureau of International Information Programs--with 
such private sector partners as YouTube, the Tisch School at New York 
University, and NBC Universal--initiated a video contest called the 
Democracy Video Challenge, with the theme ``Democracy Is . . .'' We 
wanted contestants, most of them young Internet users, to define 
democracy for themselves in 3-minute films. There were 900 entries from 
around the world, with the winner chosen by a vote on the Web--which, 
again, we did not control.
    Perhaps the best example of PD 2.0 in action is the Alliance of 
Youth Movements. In the fall of 2008, a young State Department official 
named Jared Cohen suggested that I travel to Colombia to see what that 
government, with U.S. help, had done to encourage young fighters to 
leave the FARC, the terrorist group (which started in the 1960s as the 
military wing of Colombia's Communist Party) that had been killing and 
kidnapping innocents. Were there lessons here for the demobilization 
and reintegration of violent extremists in the Middle East?
    Also at Cohen's suggestion, I met with the leaders of a spontaneous 
civilian movement that used Facebook to bring 12 million people into 
the streets of cities around the world in early 2008 to oppose the 
FARC. That movement, One Million Voices Against the FARC, had real-life 
effects, demoralizing FARC fighters and causing them to demobilize. As 
a result of this and other efforts, the size of the FARC was cut in 
half and its effectiveness significantly reduced.
    The dynamic young founder of the anti-FARC group, Oscar 
Morales,\18\ worked without the support--or, even, at first, the 
knowledge--of the Colombian Government. Morales, a young computer 
technician, was simply a citizen, angry at what terrorists were doing 
in his country. This was a model we wanted to replicate. So we decided 
to bring Morales together with young representatives of similar 
antiviolence and pro-social-change organizations using the Internet 
from countries like Egypt, Mexico, and the U.K., as well as officials 
of technology companies such as Facebook, Google, Howcast, and AT&T.
---------------------------------------------------------------------------
    \18\ Oscar Morales in February became a Visiting Fellow of the 
George W. Bush Institute in Dallas.
---------------------------------------------------------------------------
    The State Department provided only a small amount of seed money. We 
were conveners and facilitators. At a New York conference in late 2008, 
the young people decided to create their own network--which is now 
called the Alliance of Youth Movements (AYM), with a social networking 
site, including how-to hub, and a professional executive director.\19\ 
With backing from Secretary Clinton, the group held a conference in 
Mexico in October, in part with the purpose of pushing back against 
narcoterrorism, and will hold another meeting next month in London.
---------------------------------------------------------------------------
    \19\ http://youthmovements.howcast.com/.
---------------------------------------------------------------------------
    Unfortunately, not all PD 2.0 ideas have become reality. We were on 
the brink of launching the contemporary analogue of ``Problems of 
Communism,'' the USIA journal that confronted the Soviet ideology for 
40 years during the cold war. Our version, tentatively called 
``Problems of Extremism'' (POE), was planned as a journal, a Web site, 
and a platform for conferences. We wanted it to become the locus of 
liberal thought, promoting freedom, tolerance, and women's rights, with 
emphasis on the conflicts (which I will explain below) that are 
occurring in Muslim societies. The POE venture, like AYM, would be a 
nonprofit foundation, with a small amount of seed money provided by the 
U.S. Government and other funding from foreign governments and private 
institutions.
    Finally, a good example of PD 2.0 even before such a rubric existed 
is the Digital Outreach Team, begun under Ambassador Hughes. Team 
members go into chat rooms and on interactive Web sites, in Arabic, 
Farsi, and Urdu (and, we had planned, Russian), to explain U.S. policy 
and refute lies and distortions. They identify themselves as working 
for the U.S. Government and provide links to easily accessible facts on 
the Internet.
    Public Diplomacy 2.0 would be an unfulfilled idea if it were not 
for Web 2.0, the interactive tools now available on the Internet. Yes, 
al-Qaeda and other violent extremist organizations have exploited the 
Internet to their advantage, but that edge has diminished--and not just 
because the jihadist message has worn thin with al-Qaeda's penchant for 
slaughtering fellow Muslims.
    Why? One reason, says analyst Daniel Kimmage in the New York Times, 
is that ``the Qaeda media nexus . . . is old hat. If Web 1.0 was about 
creating the snazziest official Web resources and Web 2.0 is about 
letting users run wild with self-created content and interactivity, al-
Qaeda and its affiliates are stuck in 1.0.'' \20\
---------------------------------------------------------------------------
    \20\ www.nytimes.com/2008/06/26/opinion/26kimmage.html.
---------------------------------------------------------------------------
    The Internet world of al-Qaeda is one of direction: believe this, 
do that. The Internet world of today is one of interactivity and 
conversation: I think this, your ideas are unconvincing, I need more 
information to make up my mind, let's meet at 3 p.m. Thursday for a 
peaceful protest. In fact, the Internet itself is becoming the locus of 
Civil Society 2.0.
    This new virtual world is democratic. It is an agora. It is not a 
place for a death cult that counts on keeping its ideology sealed off 
from criticism. The new world is a marketplace of ideas, and it is no 
coincidence that al-Qaeda blows up marketplaces.

                    U.S. INTERNATIONAL BROADCASTING

    While taxpayer-funded, nonmilitary U.S. international broadcasting 
is almost 70 years old, the fundamental principle that underlies it is 
the same as that of Public Diplomacy 2.0: rather than preaching, the 
BBG's entities seek to inform and to generate a conversation, also with 
the ultimate objective of securing American interests. The BBG's 
broadcasters embody President Obama's notion of mutual interest and 
mutual respect.
    Along with the Fulbright educational exchanges, U.S. international 
broadcasting is almost certainly the most successful public diplomacy 
program. It is also the largest. The BBG budget rose from $440 million 
in 2001 to $758 million in fiscal 2010.
    The BBG's success may be attributed in part to its clear mandate. 
It does one thing and does it well: as a reliable source of news, it 
presents an accurate, objective and comprehensive view of America and 
its policies and, through surrogate broadcasters like Radio Free 
Europe/Radio Liberty (RFE/RL), the BBG serves as a free, mature 
communications medium in nations lacking in such institutions.
    Between 2001 and 2009, the weekly audience of the BBG increased by 
approximately three-fourths, to 171 million, and nearly the entire 
increase occurred in languages of strategic importance, such as Arabic, 
Farsi, and Urdu. Particularly remarkable is the Arabic service, Middle 
East Broadcasting Network.
    Before MBN's launch, just 7 years ago, the Arabic audience for 
BBG--through Voice of America (VOA) radio, was only 2 to 3 million. 
Today, the total audience--that is, listeners and viewers who tune in 
at least once a week on radio or TV--is 35 million. In the 14 countries 
where the BBG has done research (Algeria, Bahrain, Egypt, Iraq, Jordan, 
Kuwait, Lebanon, Morocco, Oman, Qatar, Saudi Arabia, Syria, Tunisia, 
and UAE), 92 million adults have access to satellite TV. Alhurra's 
weekly audience in these 14 countries, as measured consistent with 
international broadcasting standard, is 27.5 million--almost a third of 
the potential audience.\21\
---------------------------------------------------------------------------
    \21\ The source of these data is the BBG itself, which contracts 
with a firm which independently engages such respected survey 
organizations. Most of the Middle East research was done by ACNielsen. 
The BBG uses the standard audience measurement for international 
broadcasters, asking whether the respondent watched or listened in the 
past week.
---------------------------------------------------------------------------
    While Alhurra's weekly audience is less than the weekly audiences 
for Al Jazeera and Al Arabiya, it is greater than all other non-Arab 
broadcasters combined (including BBC Arabic). Alhurra and the BBG's 
Arabic radio network, Radio Sawa, have a weekly audience of 71 percent 
of Iraqis and 61 percent of Syrians. Together, Sawa and Alhurra reach 
an upduplicated audience of more than 35 million. In each of the 14 
researched markets, Alhurra figures among the top 20 TV channels of all 
kinds (entertainment as well as news), except in Saudi Arabia, where it 
is 21st. Surveys find that Alhurra is considered ``trustworthy'' by at 
least 90 percent of its viewers in such countries as Syria, Egypt, 
Jordan, and Kuwait. In the past few weeks, Alhurra, with a larger 
audience in Iraq than Al Jazeera, has provided vigorous, objective 
coverage of that country's elections.
    Meanwhile, two other BBG entities, RFE/RL and VOA are together 
broadcasting a stream in Pashto and Dari 24/7 into Afghanistan, where 
RFE/RL is the No. 1 news station in the country. Separately, last 
December, RFE/RL began broadcasting in local Pashto dialects to 
Pakistan and the border regions with Afghanistan over a new station 
called Radio Mashaal, offering an alternative to extremist stations in 
the region. Radio Deewa, a product of VOA, is now broadcasting 9 hours 
a day in Pashto to federally administered tribal areas of Pakistan, 
reaching 14 percent of Pashtuns in this critical area.
    VOA has the largest combined radio and television audience in Iran 
of all international broadcasters, with one in four adult Iranians 
tuning in to a VOA program once a week. PNN broadcasts 7 hours of 
television daily, repeated in a 24-hour format, and 5 hours of radio. 
Programming is also available around the clock on the Internet.
    At the end of December, VOA launched a new Web application that 
allows users in Iran to download and send content to VOA's Persian News 
Network with their iPhones. The application enables users of Apple 
iPhones and Android phones to get the latest news from PNN and, with a 
single click, to send links to VOA stories via Facebook and Twitter 
pages and e-mail accounts. The application will be available shortly in 
Apple's online store, PNN's Web site (http://www1.voanews.com/persian/
news/) and on PNN's Facebook and Twitter accounts.
    The application also gives Iran's ``citizen journalists'' the 
opportunity to use their iPhones and Android phones to send video and 
still pictures taken on their devices to a secure Web site where VOA's 
PNN editors can download the images and review them for possible 
broadcast use and Web posting.
    RFE/RL's Radio Farda continues to provide hard-hitting news and 
information in a 24/7 format that gets stories to the Iranian people 
that their government denies them on domestic media outlets. Radio 
Farda has reported the harsh crackdown in the aftermath of the flawed 
June election.
    The BBG is focused not only on areas of conflict. It has a major 
presence in Africa, where it has gained a reputation for broadcasting 
useful information about health; in Cuba, Russia, and in parts of Asia 
where freedom of the press is constrained, such as China and Burma. BBG 
budgets rose significantly in the 7 years following the 9/11 attacks.
    Because of evolving audience tastes, as well as legal, political, 
and technical obstacles to radio and TV in countries such as Russia, 
the BBG has moved more and more toward reaching audiences through the 
Internet.
    But all is not well. The BBG's purpose and achievements need to 
gain greater understanding and support among policymakers.
    The BBG is an independent agency of the Federal Government, with 
eight governors, four from each party, nominated by the President and 
confirmed by the Senate, plus the Secretary of State, who typically 
appoints as representative the Under Secretary of State for Public 
Diplomacy and Public Affairs.
    Unfortunately, in recent years, the confirmation process has become 
fraught with difficulty. As a result, although it occurred in June 
2007--more than 2\1/2\ years ago--my confirmation was the last voted by 
the Senate for a BBG governor. Natural attrition has left the BBG with 
only four governors plus the Secretary of State--a total of five, which 
is the minimum for a quorum.
    The BBG is no ordinary board; its governors serve as a collective 
chief executive officer for this critical organization. Imagine a CEO 
who serves with barely half of his or her intellectual and physical 
strength, and you'll get an idea of the status of the BBG today. I urge 
the Senate to confirm a full slate of governors immediately. The lack 
of action over the past few years on confirmations of governors is a 
sad manifestation of the overall standing of public diplomacy among too 
many policymakers. We can't wait.

                      TRADITIONAL PUBLIC DIPLOMACY

    My predecessor, Ambassador Hughes, gave me two excellent pieces of 
advice, and I passed them on to my successor: First, the best thing we 
can do for the long run in traditional public diplomacy is put 
Americans face to face with foreigners, and, second, we can't do enough 
English teaching.
    We put people face to face mainly through exchanges. Ambassador 
Hughes' great accomplishment was expanding these programs that had been 
languishing. The United States now brings about 50,000 people from 
other countries to the United States on programs like Fulbright and YES 
(for high school students, mainly from Muslim-majority nations) and 
International Visitor Programs, whose graduates have included such 
figures as Hamid Karzai and Margaret Thatchter, when they were rising 
stars.
    Education is America's greatest brand, and we have bounced back 
dramatically from 9/11. Today, despite tougher visa requirements, more 
than 600,000 foreign students are matriculating in the United States--
an all-time record.
    Fulbright is the largest single public diplomacy program of the 
State Department, with federal support that has been increasing 
consistently for the past 6 years,\22\ thanks to the efforts of 
President Bush and the U.S. Congress. In fiscal 2004, federal spending 
on Fulbright was $150 million; in 2010, it will be $254 million. 
Fulbright too has become more strategic. Exchanges for university 
students and scholars in both directions have increased substantially 
in Muslim-majority countries, including Afghanistan, Indonesia, Turkey, 
and Iraq. The Fulbright program in Pakistan is the largest in the 
world. Globally, applications are at their highest level in history.
---------------------------------------------------------------------------
    \22\ www.fulbright.org/conference/2009/.../
Marianne%20Craven_Remarks.doc. Marianne Craven is Managing Director for 
Academic Programs at the Bureau of Educational and Cultural Affairs, 
U.S. Department of State.
---------------------------------------------------------------------------
    While the U.S. Government is the top funder of Fulbright 
scholarships, there are substantial contributions coming now from 100 
countries, including major investments from India, China, Turkey, 
Chile, and Indonesia. And as an example of the public-private 
partnerships that are so critical to the success of public diplomacy, 
U.S. universities contribute $30 million a year in cost-sharing.
    The problem with exchanges, however, is that they are expensive. To 
succeed in the future, public diplomacy will need to find ways to use 
technology to reach a wider audience with each individual exchange--
through video, for example, or sophisticated use of social networking 
media--and to find ways to engage more private-sector partners.
    As for English, the United States teaches it because the world 
wants to learn it--because governments and people in practically every 
country in the world see English as a way to move up economically. 
Everywhere, including difficult neighborhoods like Yemen, the West Bank 
and Gaza. In teaching English, we teach a language and tell America's 
story. Spending on English-teaching programs by the State Department 
has risen from $6.8 million in fiscal 2004 to $46.6 million this year.
    Educational and cultural (including sports) exchanges, plus the 
outreach activities (such as sending speakers aboard and operating 
America.gov Web sites in seven different languages) of the Bureau of 
International Information Programs, comprise what I term ``traditional 
public diplomacy.'' These programs are important. They work, as recent 
assessments and evaluations have shown. The challenge is to improve 
efficiency and flexibility.

                            TWO URGENT TASKS

    But, to return to Strategic Public Diplomacy and the war of ideas: 
What are the urgent tasks today? Here are two .
    A New Narrative: The most pernicious idea in Muslim societies is 
that the United States wants to destroy Islam and replace it with 
Christianity. Vast majorities in many countries believe this narrative, 
and it is the prism through which they view almost all U.S. 
activities.\23\
---------------------------------------------------------------------------
    \23\ See sources that I cited in my confirmation testimony in 
January 2008: WorldPublicOpinion.org, Program on International Policy 
Attitudes, University of Maryland, ``Muslim Opinion on U.S. Policy, 
Attacks on Civilians and al-Qaeda,'' April 24, 2007. A press release 
summarizing the study began, ``An in-depth poll of four major Muslim 
countries has found that in all of them large majorities believe that 
undermining Islam is a key goal of U.S. foreign policy.'' See http://
worldpublicopinion.org/pipa/articles/brmiddleeastnafricara/346.php?
lb=brme&pnt=346&nid=&id=. Also, ``America's Image in The World: 
Findings From the Pew Global Attitudes Project,'' Testimony of Andrew 
Kohut, Pew Research Center, before the Committee on Foreign Affairs, 
U.S. House of Representatives, March 14, 2007.
---------------------------------------------------------------------------
    But to try to refute this narrative head on is not easy. A better 
approach is to promote a different narrative--one that reflects the 
truth. The State Department's new strategic plan for public diplomacy 
lists ``Shape the narrative'' as one of five strategic objectives. 
That's encouraging, but the narrative that the plan has in mind 
appears, from the document, to be U.S.-centric and difficult to convey 
and sustain. The objective appears to be to explain American policies 
better and to ``counter misinformation and disinformation.'' \24\ 
Certainly, those activities must be part of any public diplomacy 
strategy, but the more valuable narrative to spread is not about the 
United States at all.
---------------------------------------------------------------------------
    \24\ ``Public Diplomacy: Strengthening U.S. Engagement With the 
World,'' Office of the Under Secretary of State for Public Diplomacy 
and Public Affairs, 2010, pp. 8-11.
---------------------------------------------------------------------------
    The indispensable narrative is the real story of what is happening 
in Muslim societies. It is a narrative of three conflicts that are 
within Muslim societies. Yes, the United States is deeply affected by 
them, but they are intra-Muslim conflicts and need to be understood 
that way. They are:

  <bullet> Religion and terror. A small group of violent 
        reactionaries--led by al-Qaeda, the Taliban, and allied 
        groups--is trying, through horrifying brutality, to bring more 
        than 1 billion Muslims into line with a sweeping totalitarian 
        doctrine, inconsistent with the tenets of Islam.
      Growing numbers of Muslims are waking up to threat and are 
        opposing and ostracizing the violent extremists in their 
        midst--even in Pakistan, where a terrible threat had been 
        widely ignored. Even as U.S. favorability has slipped, support 
        for al-Qaeda and the Taliban has plummeted. In spring 2008, 
        some 25 percent of Pakistanis had a favorable opinion of al-
        Qaeda, with 34 percent unfavorable--a disturbingly close split. 
        Today, just 9 percent have a favorable opinion, with 61 percent 
        unfavorable. So, too, with the Taliban: The ratings shifted 
        from 27 percent favorable and 33 percent unfavorable in 2008 to 
        10 percent favorable and 70 percent unfavorable today.\25\ Our 
        job in public diplomacy should be to help spread information 
        about these reactionary groups trying to destroy Islam.
---------------------------------------------------------------------------
    \25\ http://pewresearch.org/pubs/1148/pakistan-little-support-for-
terrorists-most-favor-education-for-girls.
---------------------------------------------------------------------------
  <bullet> Iran and proxies. Along with its proxies Syria, Hezbollah, 
        and Hamas, Iran is confronting the vast majority of Arab 
        nations, including Saudi Arabia, Jordan, and Egypt. This Iran 
        vs. Arab conflict is also part of the Sunni-Shia conflict that 
        is playing out elsewhere, including Iraq, but Iran's threat 
        transcends religion. Regardless of sectarian bent, Muslim 
        communities are rising to oppose the attempts by Iran and its 
        intelligence services--in particular the Quds Force--to extend 
        Shia extremism and influence throughout the world. Here, public 
        diplomacy can support those who are struggling to change the 
        policies of the Iranian regime.
  <bullet> Democracy and human rights, especially the rights of women. 
        Many Arab governments have denied their citizens what Egyptian 
        activist Saad Eddin Ibrahim has called ``the infrastructure of 
        democracy'': rule of law, independent judiciary, free media, 
        gender equality, and autonomous civil society. These 
        necessities of liberty are more important than ballots dropped 
        in a box, as we have seen by the actions of the terrorist Hamas 
        regime in Gaza.
      A widespread criticism among Muslims is that the United States 
        has not pressed authoritarian allies to democratize. For both 
        moral and strategic reasons, we have a stake in supporting free 
        societies with accountable governments. The reality of 
        democracies thriving in Muslim societies--like Turkey and 
        Indonesia--is a powerful counterweight to the canard that Islam 
        and political freedom can't coexist. Here, public diplomacy can 
        remind those advancing freedom and democracy that they aren't 
        alone and that history, including our own, is replete with 
        examples of brave advocates.
      For the immediate future, our job in public diplomacy is to 
        promote this accurate narrative in everything we do. We can do 
        it while at the same time emphasizing America's values--
        concepts of pluralism, freedom, and opportunity that run 
        counter to the extremists' ideology. We should emphasize that 
        the United States won't be a passive bystander in these 
        struggles. We will advance our own ideals and interests--which 
        include promoting a comprehensive two-state solution between 
        Israel and the Palestinians.
      But it is challenging and empowering Muslim communities to take 
        on the three great struggles themselves, with the United States 
        as a constructive partner, that is an approach that will 
        overturn the extremists' narrative and help shape a new, 
        honest, and positive storyline--in which Muslims see themselves 
        not as victims but as central protagonists in global struggles 
        for justice.\26\
---------------------------------------------------------------------------
    \26\ See ``What Obama Should Tell Muslims,'' my op-ed from the 
Boston Globe, with Juan Zarate: http://www.boston.com/bostonglobe/
editorial--opinion/oped/articles/2009/05/27/what_
obama_should_tell_muslims/.

    Strategic Public Diplomacy in Iran: The second example is one I 
laid out in a recent article with Mike Doran, a former colleague who 
now teaches at NYU. It concerns Iran.
    Here we are squandering a great opportunity. Our objective is an 
Iran free of nuclear weapons. Two routes to achieving the objective 
appear highly unlikely: armed conflict or successful official 
diplomacy. But public diplomacy can work--mainly because of the brave 
opposition movement that developed after the June elections. What are 
we doing to help? It's hard to see. Doran and I urge:

  <bullet> Providing moral and educational support for the Green 
        Movement in Iran by publicizing what worked in Ukraine or 
        Georgia, dubbing into Farsi documentaries on the fall of 
        Ceausescu, Milosevic, and Pinochet; the transitions in South 
        Africa and Poland; and the achievements of the U.S. civil-
        rights movement. The great fear of the Iranian regime is that a 
        nonviolent civil resistance in the form of a color movement, 
        like those in states of the former Soviet Union, will gain 
        authority and legitimacy and, ultimately, power through 
        democratic means. The regime is right to be afraid.
  <bullet> Tightening sanctions on the Iranian economy and publicizing 
        the connection between regime belligerence and economic 
        malaise. The slogans of the protesters demonstrate that they 
        are connecting the dots between the regime's foreign policy and 
        economic privation.
  <bullet> Doing all we can to increase communications within Iran, as 
        well as between Iran and the outside world, including boosting 
        broadcasting by Radio Farda and Voice of America satellite TV 
        and spreading tools to facilitate mobile-phone messaging and 
        social networking--and helping Iranians get the technology to 
        overcome regime attempts to block and censor. In testimony in 
        February in the House, Mehdi Khalaji and J. Scott Carpenter 
        urged this approach as well. They state that Ayatollah 
        ``Khamenei often expresses his belief that he is in a soft war 
        with the West. For him, all new telecommunication, Internet, 
        and satellite technology are Western tools to defeat him in 
        this war.'' \27\ We should be furnishing that technology. We 
        should also be vigorously opposing Iranian interference with 
        satellite transmissions, in violation of international 
        agreements.\28\
---------------------------------------------------------------------------
    \27\ http://www.washingtoninstitute.org/templateC14.php?CID=512. 
Testimony before the House Committee on Foreign Affairs Subcommittee on 
the Middle East and South Asia. Both Khalaji, who was trained in the 
seminars of Qom before moving to the United States, and Carpenter, a 
former Deputy Assistant Secretary of State, are fellows of the 
Washington Institute for Near East Policy.
    \28\ http://www.bbg.gov/pressroom/printerfr.cfm?articleID=443. VOA 
and BBC transmissions were both jammed, leading a European satellite 
operator to take down Persian TV (PTV), the BBC Farsi network. VOA's 
Persian News Network is also sporadically removed. ``Iranians keep 
asking me why the west is so powerless,'' Sadeq Saba, head of PTV, 
wrote on his blog. ``They say: `This is a rogue government jamming 
international signals. How will the west stop Iran getting nuclear 
weapons if they can't deal with this?' '' (http://www.guardian.co.uk/
world/2010/jan/14/bbc-joins-iran-tv-protest).
---------------------------------------------------------------------------
  <bullet> Finally, aggressively refuting, in campaign style, the key 
        propositions of Iranian propaganda, such as that the Green 
        Movement is marginal and lacks support and that the West wants 
        Iran to be a technological backwater. A serious strategic 
        communications program for Iran could have dozens, even 
        hundreds, of programs. They might range from a campaign, 
        including posters and TV commercials featuring Gov. Arnold 
        Schwarzenegger, to encourage Iranians to come to California to 
        be trained as high-tech experts; to an aggressive effort to 
        expose the Iranian agents who beat and seize demonstrators; to 
        support for an interactive satellite TV station that appeals to 
        young people and urges them to express free choice in cultural 
        and social, as well as political matters; to financial aid to 
        the families of victims of the crackdown on demonstrators.

                     RECOMMENDATIONS AND CONCLUSION

    Here, then are seven recommendations for a more effective public 
diplomacy:
    1. Make public diplomacy a top priority. The entire government 
should know that the President sees public diplomacy as a critical part 
of America's overall national security strategy.
    2. Make a distinction between what I call Strategic Public 
Diplomacy--that is, PD with clear objectives that can be achieved in a 
definable period, such as war-of-ideas goals--and long-term ongoing 
public diplomacy, which may be shaped strategically (with emphasis on 
exchanges with Muslim-majority nations, for example) but which is more 
general in its effects.
    3. Institute a strong interagency structure and process led by an 
official with a close connection to the President. During the Bush 
administration, that official was the Under Secretary of State for 
Public Diplomacy and Public Affairs, but other structures are possible.
    4. Launch an interagency program quickly to show that public 
diplomacy can achieve national security goals. Iran should be the 
immediate focus.
    5. Promote the successes and enhance the understanding of the 
function and purpose of the Broadcasting Board of Governors. Confirm 
the new slate of governors. The BBG is a precious asset that must not 
be ignored or denigrated.
    6. Expand Public Diplomacy 2.0, using technology to facilitate and 
convene a broad and deep global conversation in which we can more 
effectively influence and inform. At the same time, put teeth into 
Secretary Clinton's affirmation that the United States supports open 
global communications. One step would be to challenge Iranian jamming 
of satellite broadcasts.
    7. Establish a culture of measurable results. All public diplomacy 
programs must be assessed and evaluated to see how well they ``move the 
needle.'' Measuring can be difficult and expensive, but, without it, we 
can't tell whether work is succeeding or failing.
    Finally, remember that public diplomacy performs its mission of 
achieving the national interest in a particular way: by understanding, 
informing, engaging, and influencing foreign publics. While the 
``influencing'' part may be the most important, the ``understanding'' 
part comes first. You can't persuade if you don't truly understand the 
people you are trying to persuade.
    Senator J. William Fulbright, who created the Fulbright exchanges 
in 1946, put it well: The ``essence of intercultural education,'' he 
said, referring to what would become one of our most effective public 
diplomacy programs, is ``empathy, the ability to see the world as 
others see it, and to allow for the possibility that others may see 
something we have failed to see.'' \29\
---------------------------------------------------------------------------
    \29\ www.fulbright.org/ifad/manual/quotes.pdf.
---------------------------------------------------------------------------
    Another key word in public diplomacy is compassion. At the Bush 
Institute, we base our programs on four key principles of the former 
President: freedom, responsibility, opportunity, and compassion. 
Americans are compassionate people, and that trait needs to be 
reflected in all that we do in public diplomacy. It is the foundation 
of Public Diplomacy 2.0, and, in the goals we seek, it is the driving 
force behind Strategic Public Diplomacy.
    I ended my testimony before this committee in January 2008 with the 
following sentence, which I believe bears repeating: The task ahead is 
to tell the world the story of a good and compassionate nation and, at 
the same time, to engage in the most important ideological contest of 
our time--a contest that we will win.

    Senator Kaufman. Thank you very much. Thanks for all three.
    I'd like to start with Jim and then go down the panel on 
this one question. That is, we get so tied up in the budgets 
and where we are and the rest of it, I think the point that Jim 
made about this has got to be taken seriously. If you came back 
10 years from now, what were the things that, if we'd done 
them, they would have been the most effective? Not thinking 
about present budgets or what's happening right away, but 
trying to view it from a longer range, what are the things that 
would have been the most effective if we had done them now so 
that 10 years from now we'd take seriously a strategic--public 
diplomacy was taken seriously? Start with Jim.
    Mr. Glassman. Senator, first let me just comment on 
budgets. I really did not in my way too extensive written 
testimony say that we ought to expand budgets. I understand 
what's going on.
    Senator Kaufman. Oh, no, I----
    Mr. Glassman. I know you agree with that. So I don't think 
that's the solution, to increase resources. Increasing 
resources would be fine, but we have to be realistic.
    I think there's a lot that can be done. First of all, I 
completely agree with Ambassador Hughes that increasing 
exchanges is enormously important. There's nothing more 
important. Karen told me the two most important things that we 
do are putting foreigners face to face with Americans and 
teaching English. That's what she told me when I took the job. 
She was absolutely right.
    But I do believe that there are certain things we can do in 
this more strategic realm of public diplomacy, and it begins 
with the President taking seriously, and other policymakers, 
public diplomacy as a tool of national security. That's what it 
is. I think what I would feel very good about 10 years from now 
is that there is a structure in place led by the Under 
Secretary or possibly by somebody else, that brings the 
interagency together, and that actually sends people out to do 
specific tasks.
    Now, we were doing that at the end of the last 
administration. I'm not clear about how that's being done now. 
I'm not going to criticize what's being done now. But I think 
that's the most important thing. If you ask me one specific 
thing, it would be this: I believe we are on the brink of a 
foreign policy success in Iran if we would use public diplomacy 
the way it should be used. That would be a great thing to look 
back on 10 years from now.
    Senator Kaufman. Now, you know we passed the Voice Act, 
which was a bipartisan bill passed the Senate, that shows that 
this is a bipartisan issue in terms of the Congress, in terms 
of the Senate, that we really want to do this thing and what we 
have to do on Internet freedom. It has funds in there for 
Internet freedom and the rest of it.
    So Iran is very much on people's minds and public 
diplomacy's role is key. Obviously, we have a good broadcasting 
effort in that area.
    Karen.
    Ms. Hughes. Same question?
    Senator Kaufman. Yes, same question.
    Ms. Hughes. Let me share with you what I saw being done in 
one country that I thought was extremely effective, and it 
touches on what Ambassador Glassman just said. That is that all 
the tools were brought together and applied to a problem in a 
coordinated way. So for example, the Ambassador in the 
Philippines at the time, Kristie Kenney, took me to Holo 
Island, where I, as the U.S. Under Secretary for Public 
Diplomacy, opened a road that we had opened to help the 
villagers bring their products to market.
    It was very much a battle for hearts and minds, where they 
were competing with a very violent strain of extremism that was 
connected with al-Qaeda. The war of ideas was going on on that 
little island, where they were trying to--the terrorists were 
attacking the local population, were trying to intimidate and 
terrorize the local population. We were trying to win them 
over.
    The Defense Department was providing strategic help to the 
Philippines Armed Forces. The USAID was working with State to 
help provide the funds to help the villagers bring their goods 
to market.
    That's the type of thing that I think needs to happen more 
broadly in key countries where we're facing this ideological 
struggle. We had identified, as Jim said, key countries. The 
list was classified, but we were working on very country-
specific plans to bring all the resources of the U.S. 
Government together and try to coordinate better to make a 
difference in those countries. So I think that's probably the 
single thing.
    I do think we need more resources devoted to public 
diplomacy. I don't think that means an expansion of spending 
overall. I think there are resources that are misallocated. For 
example, Defense has--and Secretary Gates has said this 
himself, that they have a lot of funds for public diplomacy 
that probably should more normally be used by the State 
Department in conducting public diplomacy.
    One of the problems that I found was not much flexibility. 
Most of my funding was tied up in salaries around the world 
with Foreign Service nationals, career Foreign Service 
officers. There was no pot of money to apply to a problem. So 
if I had found the magic bullet program, it would have been 
very hard to find the money to fund it.
    I did get funding, thanks to the Congress, through the 
supplemental on the war on terror, that allowed us to start 
this new English language teaching program for 8-to-14-year-
olds in about 30 different countries. I think that was very 
important. But that illustrated that those types of funds are 
not available.
    The first week that I was at the State Department, the 
Defense Department signed a contract with a public relations 
agency, the Lincoln Group, for almost as much as my overall 
budget. So I think that sort of illustrated very clearly that 
there may be some misallocation of existing resources and we 
need better coordination among the agencies.
    Senator Kaufman. Of course, Secretary Gates is a big 
supporter of that.
    Ms. Hughes. He is.
    Senator Kaufman. He always points out that there are more 
people in the Army bands than there are in the entire Foreign 
Service.
    Ms. Hughes. Exactly.
    Senator Kaufman. Evelyn.
    Ms. Lieberman. I agree with my colleagues. Mine is a little 
bit more of a--my first is a little bit more of a parochial 
request, and that is I still do not believe that the public 
diplomacy practitioners in the State Department are considered 
equal to the people who are the Foreign Service officers. I 
think that has not happened yet. I think it's been a merger, 
successful in some places. I think the fact that some 
ambassadors have been former public affairs officers or 
cultural officers, have been very few and far between, but that 
symbolically makes a difference as well. So I don't think the 
merger has worked as well in terms of the personnel.
    The second, I agree that exchanges, exchanges, exchanges, 
let Americans see people from other places. Let people from 
other places see and interact with Americans. I think the 
radios should be strengthened. I think they're very often 
underestimated, underrated, the radios and TV. I think that's 
worked very well. I'd like to see that work even better. I was 
reading some statistics from one of my former colleagues at 
VOA. He told me that VOA has trained 5,000 journalists in 140 
countries.
    I also find that Voice of America's special English program 
with a vocabulary of 1,500 words has taught thousands. 
Thousands of people, who we've all met, I'm sure, have said 
that that's how they learned to speak English and have learned 
to like this country, love this country.
    I agree about interagency, but I would also like to see--
there was a point I was just going to make. I would also like 
to see more interagency activity. I think the point about the 
Defense Department being very rich and in many cases they just 
don't know how to practice public diplomacy. They try to be 
more generous with some funds, but it's usually for programs 
that they themselves want to encourage, not necessarily 
programs that the State Department wants to encourage.
    I also think that we have got to get rid of having 
editorials in our radio broadcasts. The BBC and Deutsche Welle 
and Radio France International and one other that I'm missing 
used to meet quarterly, all the international broadcasters. And 
I would say why do people look at the BBC or Deutsche Welle 
with more seriousness in some cases than they look at us? And 
they said: Because you have these required editorials. People 
do not make a distinction between what is an editorial, 
considered American propaganda, and what is real news; and 
because the broadcasts on--because I was at Voice of America, I 
use that as an example, of course. Because ``The news shall be 
good, the news shall be bad, we'll tell you the truth,'' and 
the broadcasts themselves are so excellent, but they lose--they 
lose their power when they are juxtaposed with American policy 
editorials.
    Senator Kaufman. Thank you.
    Senator Wicker.
    Senator Wicker. Thank you very much, and thanks to all 
three of our witnesses. They certainly have been there and we 
can benefit from their testimony.
    Ambassador Hughes, let me begin with you. In the House and 
Senate I've tried to be a strong advocate of languages at the 
university level, strengthening language training in ROTC with 
our military. But you said something that caught my attention. 
You said we not only need people who are conversational, but we 
need to go beyond that to people who can be actually articulate 
in an interview, even with a hostile questioner. You know, 
that's hard for a lot of American politicians, so it's a tall 
order. [Laughter.]
    And it got me thinking. I was in Afghanistan at the police 
academy in Kabul and the general who was talking to us had a 
translator who it turns out was an Afghan-American who had gone 
to the United States, had married an American citizen, and who 
was persuaded to join the military to serve his new country. 
Well, I'll tell you what. I don't speak the language that he 
was speaking, but he certainly appeared to be very comfortable 
in the native language, obviously.
    How are we going to find these people that can go beyond 
conversational, which is really an achievement for an American 
citizen? How do we do that?
    Ms. Hughes. That's a great question.
    Senator Wicker. Have I stumbled upon something that we need 
to be looking at.
    Ms. Hughes. I think we need to be more focused on it. 
President Bush started a national security language initiative 
to encourage scholarships for young Americans in key languages 
vital to our national security, such as Arabic, Chinese, 
Russian. There's a list of six or seven as I recall. I do think 
we need to reach out.
    The State Department trains--reach out to people, maybe, as 
you say, Afghan-Americans, people from--maybe native speakers, 
and recruit them. There are problems, however. One of the 
things I'm concerned about is the State Department personnel 
system makes it difficult, even if you can find those people, 
to get them on board and deployed quickly.
    Right now you have to take the Foreign Service exam. That's 
a lengthy process. Once you go to work at the State Department, 
you have to do a tour on consular duty. All required--new 
officers have to do that. It's several years, I believe. Two 
years, is that right, Jim?
    Mr. Glassman. Frequently it's 5.
    Ms. Hughes. Frequently it's longer. So from start to 
finish, if you had a young American who was a great speaker 
that you wanted to send to Afghanistan to speak on, do 
television interviews on behalf of the Foreign Service, it 
would probably take you at least 5 to 6, 7 years to get them 
there, because of the current system.
    The State Department has language training that is very 
good. They rate it on different categories and I think there's 
a 3-3 that is trained to be able to be very conversational, to 
be able to engage with foreign publics and work. The 4-4 is 
what is required to be able to conduct an interview, and we 
don't train very many people to that 4-4 level.
    There's another concern that I have. We've gone away from a 
system of encouraging people to specialize in certain regions 
or language. There was apparently some concern, described as 
``going native,'' that they worried that people were going 
native because they served in certain regions so long that they 
started to have the perspective of that region rather than the 
perspective of America.
    The problem is--and so now the State Department rewards 
people for serving in different geographical regions rather 
than staying on one throughout their career. The problem with 
that again is it becomes very hard to train enough spokespeople 
who are able to communicate and understand the nuances of 
language and culture that make them really effective 
communicators.
    So I do think for the type of people that we're expecting 
to communicate in foreign languages on behalf of our country, 
we might need to look at their career path a little 
differently.
    Senator Wicker. Ambassador Glassman, you may want to 
comment about that. But let me shift and first ask you about 
Iran. I think the information that we have is that the 
government there doesn't like America very much, but the 
Iranian people really do. The population of Iran, I guess 
approximately half of it is below the age of 25, 26, something 
like that. What accounts for that?
    And then--I'll pile my questions up and let you answer as 
you choose. You stated we need to provide moral support for the 
protesters. Could you be specific about how we might do that 
without raising expectations? I don't want the protesters to 
think that it's at all likely that the American military is 
going to come in and intervene on their behalf. In previous 
decades--Hungary comes to mind. I think the freedom fighters 
thought that America would show up. We didn't. We shouldn't 
have given them reason to believe we would.
    So how do you balance that out? And then if you want to 
comment on languages I'd be happy for you to.
    Mr. Glassman. Senator, on the question of why the Iranian 
people like us, but the regime doesn't, you're absolutely 
right. The Iranian people have a long and rich history, deep. 
It's a great civilization and it is a freedom-loving people, 
and I don't think it should be unusual, we should be surprised, 
that the Iranian people have a good deal of admiration for the 
United States.
    Senator Wicker. Where does that young person that's 25 
years of age or under, where do they get their information?
    Mr. Glassman. Well, I think that----
    Senator Wicker. Is this a success of public diplomacy or is 
it just----
    Mr. Glassman. Let me say, and I have talked to many 
Iranians in this country, Iranian-Americans, and the role 
that's played by the VOA and Radio Farda should not be 
underestimated. It's really important. It is really important. 
That's why I did mention the jamming by the Iranians of 
international satellite broadcasts, which is absolutely 
outrageous.
    But the answer to your question is that the Iranians are 
very much, especially the young people, are very much exposed 
to what's going on in the rest of the world through the 
Internet and through other means. There is travel outside of 
Iran. And they feel an affinity with Americans. There are a lot 
of Iranian-Americans that talk to people in Iran as well.
    So it's a great relationship, and Iran is a rich, a rich 
civilization that is now under the thumb of a despotic regime 
that more and more Iranians feel that something can be done 
about. And I'm not talking about the United States giving 
material support to overthrow the Iranian Government. I'm not 
saying that. What I'm saying is that there is, first of all, 
moral support. I don't think moral support--to give moral 
support to Iranians in the Green Movement is not to say that 
we're sending in the tanks. It is to say that what you're doing 
is brave, it is admirable, and it is in keeping with the values 
of this country and I think the values of freedom-loving people 
everywhere. I think that's something we need to say, and we can 
reinforce it. There are many ways to reinforce it.
    One very simple way to reinforce it is to remind Iranians 
of the people who've gone before them, both those in the Orange 
Movement in Ukraine, people in the civil rights movement in the 
United States. There is a rich history of dissidents and 
freedom and advancing freedom around the world. The idea is 
they're part of it.
    Now, there are other things that can be done in a material 
sense and certainly in an educational sense. But there's lots 
and lots that can be done. I mentioned in an op-ed that I wrote 
with Mike Doran, former Defense Department official, that there 
are--literally we could be doing hundreds of programs aimed at 
Iran today, and we're lucky that events have transpired in the 
way that they have in a country in which, as you say, the 
population is predisposed to like us. There couldn't be a more 
fertile field for the use of public diplomacy to achieve 
national security ends than Iran.
    Senator Wicker. OK. And then finally, you've mentioned 
measuring results. You also mentioned strategic goals versus 
long-term and ongoing goals. I guess it's hard to measure 
success in the long term ongoing. But to the extent that you 
have a strategic goal that doesn't last for decades, could you 
elaborate on how best to measure our success?
    Mr. Glassman. Well, let me just say, Senator, that it is 
not easy to do this.
    Senator Wicker. No, it sure isn't.
    Mr. Glassman. Right. When I was on the Djerejian group in 
2003 looking at public diplomacy in Arab and Muslim societies, 
that was one of our major recommendations. I have to say that 
Ambassador Hughes and others of my predecessors really stepped 
up to the plate and put into effect in the Under Secretary's 
Office some very good tools for measuring, for example, how 
well we're doing with exchanges, how well we're doing with 
Access Microscholarships, the English teaching programs she's 
talking about.
    It is much harder to do, and I'm not the expert on exactly 
how you do it. All I can say is it has to be part of everything 
that you do in public diplomacy. Is this working or not? It 
requires people who are experts sitting down, trying to figure 
out what the metrics should be, and then trying to take out the 
other elements that may be influencing final outcomes.
    As I say, it's not easy. We devoted a fair amount of 
resources during my time to trying to do this, and I know that 
the current Under Secretary is doing the same thing. I think it 
just needs to continue. It's too easy to say, as I heard many 
people say in 2003, gee, we can't do this, it's way too hard. 
You've got to know whether it's working or not.
    Senator Wicker. Well, I'm way over on this segment. If you 
could supplement your answer with thinking back during your 
term to specific ways that you measured.
    Mr. Glassman. I'd be happy to.
    Senator Wicker. Now, Mr. Chairman, it's your turn. I have a 
question----
    Senator Kaufman. Go ahead.
    Senator Wicker. OK. Secretary Lieberman, I want to ask you 
about American Centers, which we now call Information Resource 
Centers. You mentioned, you and Ambassador Hughes both 
mentioned, not being walled in within the security of our 
compounds. After the bombing of our Embassies in Kenya and 
Tanzania, we pulled back on what some people consider a very 
valuable diplomacy platform, the American Centers. They housed 
libraries, reading rooms, taught English, conducted countless 
outreach programs, book groups, film series, and on and on.
    The decision was made around 1998, 1999, to move those 
within the Embassy and, as you might expect, the attendance at 
these centers dropped considerably. Our ranking member on the 
full committee, Senator Lugar, has championed reversing this 
retrenchment of the American Centers. S. Res. 49 has passed the 
full Senate and Senator Kaufman and I were cosponsors. It urges 
the Secretary of State to review the status of American Centers 
globally and, to the extent that security considerations allow, 
increase access to them.
    Did we make a mistake by changing the focus and 
accessibility of American Centers and what is the future there?
    Ms. Lieberman. The answer is we made a mistake, but in some 
places it was a matter of necessity. When I first became Under 
Secretary, as I had traveled around many of the libraries were 
beginning to close, and it was as these libraries that were 
staffed by the former USIA public affairs officers began to 
close down, I think not so much because of safety reasons at 
that time, but because everything was becoming more electronic 
and they were trying to get more efficient.
    I think after 9/11--and the complaint about the closure was 
that this was the one place, this was the one place in the 
Embassy that people were allowed to come in, find information, 
read books, find out about the United States, a chance for us 
to meet people face to face, and that was considered a hardship 
when they closed because people didn't have any contact with 
the Embassy, with the Embassy informally, let's put it that 
way.
    I remember Ambassador Rohatyn around the time of 1999 or 
2000 began to talk about these American Presence posts, where 
people--one officer would go to, not a remote area, but away 
from the Embassy, to a city or a smaller area, and he and a 
couple of foreign host national staff would have a mini-embassy 
where they would deal with local governments, do trade, do 
commerce. So they would function as mini-embassies, and at 
least there were places where people could interact with local 
people.
    I think the safety and security became an issue. In some 
places, as I said before, you're very brave to go out of the 
embassy in some countries, as you know, and deal with the 
people on the street, but where American Centers spaces that 
offer public access to information about us--books, CDs, DVDs, 
Internet use--have been tremendously popular and tremendously 
successful, and it's the one place where informally there can 
be interaction with people in a particular country and our 
public affairs officers.
    Senator Kaufman. I'd just make one comment. The importance 
of these things--I was really struck. I was in Johannesburg 
when they closed down the library there in the Embassy. That's 
where Mandela and Slovo and Mbeke came together to figure out 
what they were going to do, and that's what happened all over 
the world.
    The second thing was, I was in Jerusalem in April. There's 
an American Center right in downtown Jerusalem in a mall. So I 
think we really have to--and I know Senator Wicker agrees with 
me--we really have to take a hard look at the security, because 
clearly this is what the terrorists want us to do. I mean, the 
whole objective, if you listen to what they're saying, is they 
want us to retreat.
    Jim, could you just talk me a little bit more? I thought 
your example on measurement on Pakistan was extremely good in 
terms of laying out the complexity of the problem. How would 
you do something like that kind of a complex problem, where 
you're not trying to change public opinion, but where you're 
trying to change opinions in the country? And I'd like 
everybody's comment.
    Mr. Glassman. Well, it's not public opinion about the 
United States necessarily.
    Senator Kaufman. Right.
    Mr. Glassman. I think we're way too fixated on that. For 
example, if your objective in Pakistan would be to convince 
more Pakistanis that this is our war--that, by the way, is a 
phrase that comes from President Zardari, and I think that as a 
mission for American public diplomacy it's a good one. That's 
actually quite easy to measure. Maybe our own participation in 
changing attitudes in Pakistan so that more people would agree 
with the statement, that may be kind of difficult to separate 
out from what others are doing.
    And then there's the question of what we would do. Some of 
what we would do might be covert and classified, but a lot of 
it might be simply giving help to the Pakistanis, helping to 
build capacity, for example, for their own effort to change 
public opinion. I think that would do a world of good.
    Now, public opinion in Pakistan is changing and it's 
mainly--it may be changing partly because of what we're doing, 
but it may be mainly changing because of what they're doing, 
what the terrorists are doing. But I think that's something we 
could measure.
    Senator Kaufman. Good. Karen, Evelyn?
    Ms. Lieberman. Karen, go ahead.
    Ms. Hughes. Well, I do think there are a lot of things we 
could do to help. We can provide forums where Pakistanis have a 
chance to talk about these issues, to debate. We can help with 
communications tools and tactics. I found that often very good 
things would happen, someone would speak out and condemn 
violence and terrorism in the name of Islam, for example, but 
it wouldn't be publicized, it wouldn't be picked up by the 
media. So we can help them with communications tactics to make 
sure that it's publicized and that they're booked on radio and 
television and have an opportunity to share those views.
    So I think there are a lot of opportunities to do things 
like that. And I very much agree with Jim that we need to look 
at it, not as if--we need to look at our strategic priority in 
the country. Obviously, we have a shared priority with Pakistan 
in defeating extremism there, and look at with Pakistani 
partners how can we best help you to do that, because it's in 
our interest and in your interests.
    Ms. Lieberman. It's very difficult to measure, obviously, 
as my colleagues have said. But one vastly underutilized 
resource is the thousands of alumni who have participated in 
our programs, then have gone back to their own countries. There 
is no system for reaching these people with regular 
communications, and I think that that is a vast untapped 
resource that we can use.
    Ms. Hughes. I agree with that, and we worked--Senator, if I 
may address that, we did work to begin to establish an alumni 
database. We also put in place some programs to begin to 
evaluate. We do a good job of evaluating our exchange programs. 
We often weren't doing a good job on our other public diplomacy 
programs. So we put in place something called the Mission 
Activity Tracker, where we now have a survey: What was the 
result? Did this speaker help shape your views or increase your 
understanding of America? Did we achieve the goal in this 
program? How would you evaluate the impact of this program?
    So we are trying to get that culture. I actually cancelled 
the publication of a magazine, Hi Magazine, which had been 
created to try to reach out to Arab young people, but we found 
after we did a survey of our embassies it wasn't successful. 
People weren't looking at it. It wasn't being used. It was 
expensive and not achieving the goal. So we suspended 
publication of it.
    So I think we are doing a better job and our public 
diplomats are committed to doing that. The thing that's harder 
to measure is what is the impact of having an American who 
speaks good Arabic going on Al Jazeera? Well, at least you're 
taking time that somebody else might be spending to criticize 
you, so at least you're getting--and you're getting your views 
out there. It's hard to measure what impact does that have, but 
over time--take the analogy here. It's as if someone in a 
campaign for Senate decided not to go on television. Well, you 
would never do that because your opponent would get all the air 
time.
    So we need to be out there advocating. It is difficult to 
measure the impact of that.
    Senator Kaufman. Great. I want to thank you very much. We 
could stay. I've got another 20 questions. But we have a very 
important second panel and the Ambassador is here. So I want to 
thank you very much, and if Ambassador McHale will come up here 
we'll get started with the second panel.
    Ms. Hughes. Thank you for the opportunity for inviting us. 
Thank you.
    Senator Kaufman. Thank you very much.
    [Pause.]
    Senator Kaufman. Under Secretary McHale, thank you very 
much for coming here today. I think we can move right into your 
opening statement.

 STATEMENT OF HON. JUDITH A. McHALE, UNDER SECRETARY OF STATE 
   FOR PUBLIC DIPLOMACY, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. McHale. Thank you. Thank you very much. It's a bit 
lonely by myself. Can I invite them back?
    Chairman Kaufman, Senator Wicker, thank you for your 
invitation to appear before you this afternoon. I appreciate 
this opportunity to discuss with you the state of America's 
public diplomacy, the framework that we are developing to more 
closely align our activities with the Nation's foreign policy 
objectives, and the challenges we continue to face.
    Before I begin, I want to acknowledge the legacies of my 
predecessors who just testified. In a span of just a few years, 
they put our Nation's public diplomacy on a trajectory that 
laid the foundation for a new approach to public diplomacy for 
the 21st century.
    As I noticed when I listened to them--in fact, I was saying 
to them, you guys have stolen all my lines--my predecessors and 
I agree on many issues, including the central importance of 
public diplomacy to our Nation's foreign policy and our 
obligation to ensure public diplomacy is strategic and 
coordinated at the interagency level. We also agree in many 
ways on how we should approach public diplomacy, including by 
assertively shaping the public narrative, expanding our 
engagement beyond elite audiences, and getting more innovative 
in our programming while not walking away from programs that 
work.
    Throughout the past year we have witnessed the strong, 
energetic, and consistent commitment of President Obama and 
Secretary Clinton to public diplomacy. Both understand that 
engagement with global publics must be an essential part of our 
foreign policy apparatus. The communications revolution that 
has rocketed around the world has had an impact on the 
attitudes, behaviors, and aspirations of people everywhere. 
Public opinion is influencing foreign governments and shaping 
world affairs to an unprecedented degree.
    In this environment, our efforts to engage foreign publics 
through public diplomacy are more important than ever. We must 
act boldly and decisively to develop a clear, consistent, and 
comprehensive approach. Over the past months 8 months we have 
undertaken a focused and disciplined review of the current 
state of public diplomacy and public affairs at the Department 
of State. This process showed that in significant ways our 
public diplomacy was working well to advance America's 
interests, but it also revealed a great deal of consensus about 
what needs to be changed to align it to current priorities and 
guide our efforts going forward.
    Last month we began rolling out the results of our review, 
a new global strategic framework that I believe will give us 
the focus and capabilities we need in the complex environment 
of the 21st century. The new framework rests on the core 
mission of public diplomacy to support the achievement of U.S. 
foreign policy goals and objectives, advance national 
interests, and enhance national security by informing and 
influencing foreign publics and by expanding and strengthening 
the relationship between the people and Government of the 
United States and citizens of the rest of the world.
    As part of our review, we identified five strategic 
imperatives. First, in this information-saturated age we must 
do a better job of framing global narratives in order to 
reinforce our foreign policy goals. We must become more 
proactive and less reactive. We are bolstering our 
communications outreach locally, nationally, regionally, and 
globally to inform, inspire, and persuade our target audiences 
and to counter misinformation.
    In support of these efforts, among other things, we are 
creating the new position of Deputy Assistant Secretary of 
State for International Media Support within State's Bureau of 
Public Affairs, to facilitate coordinated and high-level 
attention to foreign media.
    Second, we are expanding and strengthening people-to-people 
relationships, relationships based on mutual trust and respect, 
through our public diplomacy programs and platforms. In 
addition to growing our highly successful exchange programs, we 
are broadening the demographic base of those with whom we 
engage beyond traditional elites, and we will continue to 
support programs that simultaneously advance U.S. national 
interests and offer desired skills to targeted audiences, 
including expanded language training and teacher training, 
collaboration in skill-building in science, technology, and 
entrepreneurship, and programs designed to provide women with 
the skills they need to advance within their societies.
    We are evaluating the opportunities to revitalize and 
establish American Centers and Corners as spaces for public 
engagement and we are working with organizations across the 
country to expand our cultural programs to showcase the breadth 
and depth of America's cultural heritage.
    Third, we are expanding our efforts to respond rapidly to 
terrorist and violent extremist messages and proactively 
counter the narrative that has allowed them to disseminate 
misinformation and recruit new followers. In Washington and at 
our embassies and consulates overseas, we will aggressively 
harness new and traditional media to counter misinformation and 
disinformation. In doing so, we will not simply communicate 
U.S. perspectives. We will also empower local, credible voices 
and build host government capacity to counter the extremist 
narratives.
    Fourth, we are taking steps to ensure that our policies and 
programs are informed up front by a clear understanding of 
attitudes and opinions of foreign publics. We are establishing 
the position of Deputy Assistant Secretary of State for Public 
Diplomacy in each of our regional bureaus. These officers will 
be responsible for ensuring that a public diplomacy perspective 
is incorporated as part of senior policy formulations and for 
coordinating all our public diplomacy initiatives throughout 
the respective regions.
    Finally, we are taking steps to ensure a strategic 
allocation of resources in support of today's foreign policy 
priorities. We are strengthening the policy, planning, and 
resource function within my office and we are reestablishing 
multiyear public diplomacy plans for all posts. These plans 
will set forth our public diplomacy mission in host countries, 
analyze target audiences, inventory continuing and innovative 
tactics to achieve our goals, identify the resources necessary 
for success, and integrate realistic measurements of 
effectiveness.
    As we implement the new global strategic framework for 
public diplomacy, we have placed renewed emphasis on 
coordination both in Washington and overseas to ensure that our 
efforts complement and, where possible, reinforce the 
activities of other departments and agencies. We participate in 
the weekly NSC-led interagency policy coordination process and 
take part in a variety of other staff-level coordination 
bodies, including the biweekly small table group at the 
National Counterterrorism Center. We also enjoy a close and 
productive working relationship with our partners at the 
Department of Defense. I talk and meet regularly with my 
counterparts there on both specific programs and on broader 
strategic issues, such as potential rebalancing of the 
respective roles, responsibilities, and resources of State and 
Defense in the public diplomacy and strategic communications 
arenas.
    Mr. Chairman, let me say in closing that I believe this is 
a moment of great opportunity to redefine our relationship with 
people around the world and to build bridges of knowledge and 
understanding with people everywhere. In doing so, I believe we 
will improve lives and support our national interests, and I 
look forward to working with you as we seek to achieve these 
goals.
    Thank you.
    [The prepared statement of Ms. McHale follows:]

    Prepared Statement of Judith McHale, Under Secretary for Public 
   Diplomacy and Public Affairs, Department of State, Washington, DC

    Chairman Kaufman, members of the subcommittee, thank you for your 
invitation to appear before you this morning.
    I appreciate this opportunity to discuss with you the state of 
America's public diplomacy, the framework that we are developing to 
more closely align our activities with the Nation's foreign policy 
objectives, and the challenges we continue to face.
    Before I begin, I want to acknowledge the legacies of my 
predecessors, several of whom testified before you this morning. In a 
span of just a few years, they put our Nation's public diplomacy on a 
trajectory that laid the foundation for a new approach to public 
diplomacy for the 21st century.
    Throughout the past year we have witnessed the strong, energetic, 
and consistent commitment of President Obama and Secretary Clinton to 
public diplomacy. From the President's speeches in Cairo and Accra, to 
the many events that the Secretary has held directly with international 
audiences around the world, they have made public diplomacy an integral 
part of their approach to foreign policy. Both understand that 
engagement with global publics must be an essential part of our foreign 
policy apparatus as we pursue our policy objectives, seek to advance 
our national interests, and strive to ensure our national security.

                           THE WORLD WE FACE

    The communications revolution that has rocketed around the world 
has had an impact on the attitudes, behaviors, and aspirations of 
people everywhere. Public opinion is influencing foreign governments 
and shaping world affairs to an unprecedented degree. In the past 25 
years 40 new electoral democracies have emerged. This is a great 
triumph for our belief in the democratic form of government. As 
citizens in these countries exercise their rights, their decisions 
affect not only the future of their own countries but also the future 
of the United States and that of the rest of the world. In this 
context, our efforts to engage foreign publics through public diplomacy 
are more important than ever before.
    Today, 45 percent of the world's population is under the age of 25. 
These young people--many of whom face enormous social and economic 
challenges--have come of age during a period of limited direct 
engagement with the United States. They communicate in new ways and 
with tools which are constantly evolving. As we reach out to this new 
generation we must develop strategies to engage and inspire them. 
Increasingly our opponents and adversaries are developing sophisticated 
media strategies to spread disinformation and rumors which ignite 
hatred and spur acts of terror and destruction. We must be ever 
vigilant and respond rapidly to their attacks against us.
    Women account for over 50 percent of the world's population and yet 
in too many parts of the world they lack access to education and 
fundamental rights. Countless reports and studies demonstrate that 
increased participation by women in the social, economic, and political 
lives of their countries results in more stable productive societies. 
We must continue to develop and deploy new programs to support and 
empower women as they seek to improve their lives and communities.
    The global challenges we face today require a complex, 
multidimensional approach to public diplomacy. Our Government must 
develop new ways to communicate and engage with foreign publics at all 
levels of society. In doing so, we must do a better job of listening; 
learn how people in other countries and cultures listen to us; 
understand their desires and aspirations; and provide them with 
information and services of value to them. In essence, we must develop 
ways to become woven into the fabric of the daily lives of people 
around the world as we seek to create strong and lasting relationships 
with them.

               A STRATEGIC APPROACH FOR THE 21ST CENTURY

    We must act boldly and decisively to develop a clear, consistent, 
and comprehensive approach to public diplomacy. Over the past 8 months 
we have undertaken a focused and disciplined review of the current 
state of public diplomacy and public affairs at the Department of 
State. As part of that review, we have consulted with individuals 
involved in public diplomacy here on Capitol Hill, at the National 
Security Council and the Department of Defense, and at all levels 
within the Department of State. We have also met with representatives 
of academia, nongovernmental organizations and the private sector. I 
have traveled to embassies and consulates in Europe, the Middle East, 
South Asia, and East Asia. And in October we hosted a global conference 
attended by all our Public Affairs Officers to ensure that we 
understood the needs of our posts around the world.
    This process showed that in significant ways our public diplomacy 
was working well to advance America's interests. But it also revealed a 
great degree of consensus about what needs to be changed to align it to 
current priorities and guide our efforts going forward. Last month, we 
began rolling out the results of our review: a new global strategic 
framework for public diplomacy that I believe will give us the focus 
and capabilities we need in the complex environment of the 21st 
century.
    The new framework rests on the core mission of public diplomacy to 
support the achievement of U.S. foreign policy goals and objectives, 
advance national interests, and enhance national security by informing 
and influencing foreign publics and by expanding and strengthening the 
relationship between the people and Government of the United States and 
citizens of the rest of the world.
    As part of our review we identified five strategic imperatives: to 
proactively shape global narratives; expand and strengthen people-to-
people relationships; counter violent extremism; better inform 
policymaking; and, redeploy resources in strategic alignment with 
shifting priorities. Moving forward, we are taking steps to ensure that 
all our activities support these requirements.
    First, in this information saturated age we must do a better job of 
framing our national narrative. We must become more proactive and less 
reactive. We are bolstering our communications outreach--locally, 
nationally, regionally, and globally--to inform, inspire, and persuade 
our target audiences and to counter misinformation. We are working with 
our posts around the world to develop and implement targeted media 
engagement plans to both push positive stories and to respond rapidly 
to negative attacks against us. We will expand the role of our regional 
Media Hubs, and enhance their capabilities as digital engagement 
centers to ensure that we are fully represented in dialogues in both 
traditional and new venues for information and debate.
    In December , I sent a cable to our Public Affairs Officers 
worldwide directing them to be more aggressive and strategic in their 
communications efforts. As an example of our new forward-leaning stance 
across the range of issues, our embassies successfully changed the 
global narrative about our rescue and relief efforts following the 
tragic earthquake in Haiti. In support of these efforts, we are 
creating the new position of Deputy Assistant Secretary of State for 
International Media Support within State's Bureau of Public Affairs to 
facilitate coordinated and high-level attention to foreign media.
    Second, we are expanding and strengthening people-to-people 
relationships--relationships based on mutual trust and respect--through 
our public diplomacy programs and platforms. In addition to growing our 
highly successful exchange programs, we are broadening the demographic 
base of those with whom we engage beyond traditional elites. We are 
using social networking and connective technologies such as Facebook, 
YouTube, and Twitter to expand our reach and ensure that we are 
represented in new media and conversation spaces. Last year, in 
connection with the President's speech in Ghana, we used a combination 
of traditional and new media to actively engage with millions of 
individuals across Africa. And in January, I participated in a Skype-
enabled video conference which allowed high school students in Boston 
to talk to their peers in Jalalabad.
    We will continue to support programs that simultaneously advance 
U.S. national interests and offer desired skills to targeted audiences. 
These programs include expanded English language teaching and teacher 
training, collaboration and skill-building in science, technology, and 
entrepreneurship, programs designed to provide women with the skills 
they need to advance within their societies, and, educational advising 
that promotes the broad array of education opportunities offered by 
U.S. academic institutions.
    We are evaluating opportunities to revitalize and establish 
American Centers and Corners as spaces for public engagement. And we 
are working with organizations across the country to expand our 
cultural programs to showcase the breadth and depth of America's 
cultural heritage. Recognizing that participants in our programs are 
among our best ambassadors, we are investing new resources both to 
enable us to remain better connected to alumni of our exchange programs 
and to enable them to better connect with each other so that they can 
build upon their shared experiences.
    Third, we are expanding our efforts to respond rapidly to terrorist 
and violent extremist messages and proactively counter the narrative 
that has allowed them to disseminate misinformation and recruit new 
followers. In Washington and at our embassies and consulates overseas, 
we will aggressively harness new and traditional media to communicate 
U.S. perspectives and counter misinformation and disinformation. We 
will redouble our efforts to empower credible voices within societies. 
To do so, we will continue to provide tools and platforms for 
independent voices to expand their reach, and leverage partnerships to 
train religious and secular leaders with local influence in issues of 
development, health, and education.
    Fourth, we are taking steps to ensure that our policies and 
programs are informed upfront by a clear understanding of attitudes and 
opinions of foreign publics. We are establishing the position of Deputy 
Assistant Secretary of State for Public Diplomacy in each of the 
regional bureaus. These officers will be responsible for ensuring that 
a public diplomacy perspective is incorporated as part of senior policy 
deliberations and for coordinating all our public diplomacy initiatives 
throughout their respective regions. We are also strengthening our 
research and planning capacity. In doing so we will draw on the 
resources of the Bureau of Intelligence and Research at the State 
Department , the Broadcasting Board of Governors, media reporting from 
the Open Source Center, and others to provide us with the information 
and data we need for this critical task.
    Finally, we are taking steps to ensure a strategic allocation of 
resources in support of today's foreign policy priorities. We are 
strengthening the Policy, Planning and Resource function within my 
office and we are reestablishing multiyear public diplomacy plans for 
all posts. These plans will set forth our public diplomacy mission in 
the host country, analyze target audiences, inventory continuing and 
innovative tactics to achieve our goals, identify the resources 
necessary for success, and integrate realistic measurements of 
effectiveness. In Washington we will examine each plan to ensure 
congruence with our global objectives and allocation of public 
diplomacy resources in line with current priorities.

                       COORDINATION AT ALL LEVELS

    As we implement the new global strategic framework for public 
diplomacy, we have placed renewed emphasis on coordination both in 
Washington and overseas to ensure that our efforts complement and, 
where possible, reinforce the activities of other departments and 
agencies.
    We participate in the National Security Council (NSC)-led 
Interagency Policy Coordination (IPC) process. The NSC brings together 
senior working-level stakeholders from across the interagency for a 
Strategic Communications IPC meeting on a weekly basis. These meetings 
address a wide range of issues including global, regional, and country-
specific matters. They are designed to coordinate, develop, and 
deconflict communications programs and activities across U.S. 
Government agencies. My staff also takes part in a variety of other 
staff-level coordination bodies, including the biweekly Small Table 
Group at the National Counterterrorism Center.
    The Global Strategic Engagement Center (GSEC), which is part of my 
office, is specifically chartered to support the NSC's Global 
Engagement Directorate. We are expanding and upgrading GSEC to 
strengthen its ability to contribute across a broad range of U.S. 
Government strategic communications and global engagement activities. 
To head the new GSEC, I have recruited Ambassador Richard LeBaron, 
formerly our Ambassador to Kuwait and one of our senior-most Foreign 
Service officers. He will arrive on the job this summer.
    We also enjoy a close and productive working relationship with our 
partners at the Department of Defense. I talk and meet regularly with 
my counterparts there on both specific programs and on broader 
strategic issues, such as potential rebalancing of the respective 
roles, responsibilities, and resources of State and Defense in the 
public diplomacy and strategic communications arenas. I recently 
visited General Petraeus in Tampa to discuss challenges and 
opportunities in his region of responsibility and how we can work more 
effectively with CENTCOM. I have also met several times with Admiral 
Olson of the Special Operations Command (SOCOM) to put our heads 
together on ways to improve current cooperation between State and 
SOCOM.

                THE NEW APPROACH: A CASE STUDY--PAKISTAN

    Last summer, my office worked closely with our Embassy in 
Islamabad, Special Representative for Afghanistan and Pakistan Richard 
Holbrooke, USAID, and DOD to draft the Pakistan Communications Plan, a 
copy of which has been provided to the committee.
    The Pakistan Plan has four broad goals: expand media outreach, 
counter extremist propaganda, build communications capacity, and 
strengthen people-to-people ties. Our plan links elements of 
traditional public diplomacy with innovative new tools. For instance, 
recognizing that extremist voices dominate in some of Pakistan's media 
markets, we instituted a rapid response unit and a 24-hour multilingual 
hotline for the Embassy to respond to attacks, threats, and propaganda 
from the Taliban, al-Qaeda, and their sympathizers. This approach 
reversed a previous approach of not actively countering such 
propaganda. It has been an uphill battle but, as our voice gets more 
frequent play, the impact on the discourse in Pakistan's media has been 
noticeable.
    As we strengthen our people-to-people ties with Pakistanis, our aim 
has been to increase positive American presence on the ground in 
Pakistan. To do this we are focusing on more exchanges, more presence, 
more Lincoln Centers, more face-to-face meetings with engaged citizens 
in Pakistan, and more nonofficial contacts between Pakistanis and 
Americans in Pakistan.
    Secretary Clinton's October 2009 visit to Pakistan was planned and 
executed in coordination with the themes of our strategic plan. Her 
focus on issues of education, jobs, and reliable electric power 
responded to what we had identified as central concerns of Pakistanis. 
Her extensive series of public engagement activities carried out the 
plan's emphasis on rejuvenating our personal, face-to-face diplomacy. 
Her visits to historical and cultural venues underscored American 
respect for and desire for partnership with the people of Pakistan. 
Perhaps the most telling moment came during a press conference during 
which Pakistani Foreign Minister Qureshi stated that the Secretary's 
visit had been a success precisely because it had manifested a ``policy 
shift'' toward a focus on ``people centric'' relations. This was and is 
precisely our message.
    While very few countries will require plans on the order of 
Pakistan, henceforth we will ensure that our public diplomacy strategic 
plans for each mission incorporate rigorous strategic analysis to drive 
focus and coordination at the post level.
    Mr. Chairman, let me say in closing that I believe this is a moment 
of great opportunity to redefine our relationship with people around 
the world and to build bridges of knowledge and understanding with 
people everywhere. In doing so, I believe we will improve lives and 
support our national interests. I look forward to working with you as 
we seek to achieve these goals.

    The Senator Kaufman. Thank you very much.
    I was really pleased to see that the fiscal year 2011 State 
Department's budget's gone from--you requested $568 million, 
which is almost a $48 million increase. Why don't you spend a 
couple minutes and tell us what that $48 million is going to go 
for?
    Ms. McHale. First, I think it is one of the sort of good 
news stories of public diplomacy. If you look at 2009, 2010, 
2011, there has been a robust increase in the resources 
allocated to it. I think that's a reflection across the 
government of an understanding of the importance of its 
critical nature.
    I don't have the exact specifics as to where it is, but 
some of the things that we're looking at are American Centers. 
We believe that this is a critical area, that we actually have 
to find ways of going back and connecting with people and being 
where they are. So a certain amount of that, of those funds, 
will be going there. We're also looking to expand some of our 
very successful exchange programs as well.
    Again, my predecessors, we all agree that--if I could sort 
of wave my magic wand and bring everyone here and send everyone 
there, we would be able to do it. We can't do that. But we want 
to do it, because we see and understand the importance and the 
power of those programs.
    [Additional written information supplied by Ms. McHale 
follows:]

    The requested FY 2011 increase of approximately $48 million is 
composed of the following:

  <bullet> $14.5 million for statutory pay raises and inflation to 
        maintain the current FY 2010 level of personnel activity.
  <bullet> $14.4 million for the establishment of new American Centers 
        as pilot projects around the world varying in size and function 
        reflecting different local conditions and priorities. Funding 
        requested would cover make-ready, staffing, equipment and 
        maintenance of the new Centers as well as training and 
        development of IIP's Information Resource Officer Corps.
  <bullet> $7.4 million for the establishment of 28 new American 
        Officer positions (8 domestic and 20 overseas) in accordance 
        with the Secretary's Diplomacy 3.0 initiative.
  <bullet> $11.5 million for the extension and expansion of public 
        diplomacy programs in Pakistan above the $30.9 million 
        originally funded by the Supplemental Appropriations Act of 
        2009. The goals of this program are to reduce support for
        al-Qaeda, the Taliban, and other extremist groups and 
        ideologies; build confidence in the capabilities of the 
        Pakistan Government to serve its people; improve and expand the 
        professionalism of Pakistani media; and strengthen the U.S. 
        relationship with Pakistani people at all levels of society.

    Senator Kaufman. Can you talk a little bit about what 
Evelyn Lieberman talked about in terms of making sure that the 
public diplomacy people throughout the embassies and in the 
State Department are on equal footing with the Foreign Service 
officers?
    Ms. McHale. I think I agree, and I've spoken to Ambassador 
Lieberman about this issue before coming in, and obviously I 
had read about it. I think, first off, that there's a growing 
recognition within the Department itself of the importance of 
public diplomacy. Part of our establishment of a new role of a 
Deputy Assistant Secretary of State in each of the regional 
bureaus is one way of doing that. It provides a career path. I 
was recently in India and I was talking to our PAO there and 
when he heard that he basically said: You know, that's 
something for me to shoot for.
    Evelyn again mentioned the fact that there had not been a 
lot of PAOs who have progressed up through the structure to 
become ambassador, and we are looking to address that. So I 
think part of it is to look how to provide career paths for 
people; to provide them the opportunities. We have increased 
the number of PAO positions around the world, so we're actually 
creating more positions.
    I don't have the exact statistic, but I think the initial 
recruits into the PD Cone are actually either the top or the 
second, that's where people go, but when they get in there 
haven't been sufficient posts for them to advance their 
careers. So we're addressing it at multiple levels and we've 
made this a top priority to see how we can continue to do it.
    But I do believe that there's sort of throughout the 
building an acknowledgment and an understanding that we have 
simply got to do some different things here.
    Senator Kaufman. Senator Wicker.
    Senator Wicker. Thank you very much, Secretary McHale. When 
a representative of the State Department appears on Al Jazeera, 
can that representative speak Arabic to the extent that he or 
she can handle a sometimes hostile interview?
    Ms. McHale. Well, in Dubai we have a media hub. And we have 
specifically staffed it with Arabic speakers who are at the 4-4 
level because we knew that it was absolutely critical for them 
to be able to do that. So we have that. We have a number of our 
senior officers who can respond in Arabic, because I absolutely 
agree that the more that we can do that the better off we are 
going to be.
    So we specifically recruit officers who can do that. Do we 
have enough people who can speak Arabic to do that? Probably 
not.
    Senator Wicker. What strategy would we have to find some 
more?
    Ms. McHale. You know, it's one of the things which is quite 
difficult to do, to get to that level where you're confident 
enough to take those kinds of interviews and handle that in a 
very rapid-fire environment. I think we have a renewed focus 
and emphasis on training people. Unfortunately, you can't train 
someone in it overnight. But we're trying to encourage people 
to do it as best we can.
    Senator Wicker. Some of my colleagues have been interviewed 
on Al Jazeera. When they submit to an interview in English, 
what sort of penetration do we get? How many listeners are able 
to understand that interview in English?
    Ms. McHale. Well, we encourage people to go on Al Jazeera 
when we can, because if you look at the reach that that network 
actually has throughout the Arab world, it has an audience of 
about 250 million people. So we encourage people, under the 
appropriate circumstances, to go on there because it is a great 
opportunity to connect with them.
    In terms of how many of those 250 million would understand 
the English, I can get back to you on that. I can't give you a 
specific answer on it. I would expect that the majority of the 
250 million probably cannot understand it in English and you 
would be relying on the translation.
    [Additional written information supplied by Ms. McHale 
follows:]

    Al Jazeera Arabic estimates that it has an average weekly audience 
of 50-60 million viewers. They routinely interview English speakers, 
including U.S. officials, via interpreters in order to ensure that all 
their viewers are able to understand the answers clearly. We have 
consistently found their interpreters to be of high quality.
    Al Jazeera English, on the other hand, conducts interviews in 
English for their English-speaking audiences in Africa, South Asia, 
North America, and elsewhere. As of now, we have seen no complete data 
on audience penetration rates for Al Jazeera English.

    Senator Wicker. What did you think about the question about 
measuring results? Let me preface it by saying this. I 
understand what Senator Kaufman and you are saying about 
expanding the budget. I also worry about the national debt and 
I think Americans are worried about $12 trillion. If we're 
going to view this as an essential part of national security, 
therefore justifying an exception to the President's freeze, 
which is apparently his view, then we need to be able to get 
back to the American people at a point and say we got this, 
this, and this for your dollars.
    Ms. McHale. I couldn't agree more, and I have made this a 
big area of focus. I obviously come from the private sector, 
where everything I did was measured, literally. So I'm very 
familiar with that.
    One of the things that we have done now as sort of a new 
approach to this is we will not undertake a program unless we 
build into it up front some performance metrics against which 
we can measure. It is, as Ambassador Glassman said, it is very 
difficult to do that. How do you measure? When you put someone 
through--you have a Fulbright scholar who comes here; 30 years 
later they may end up being the President of their country. I 
know now that that's a great investment. We have 40 heads of 
state or senior government ministers who have been there. 
However, the fact that it's not impossible; that it's very 
difficult--we still have to do it.
    And frankly, whether there was a budget challenge or not, I 
would think that we should do that. I think that that's a 
prudent way of knowing what you're doing.
    So what are some of the things that we're actually doing? 
As Ambassador Hughes said, we pretty successfully measure our 
exchanges. It's relatively easy to do that. You invite people, 
they're here, you survey them, and you send them back. Some of 
our other programs are more difficult. We have a new office 
of--we've expanded the Office of Measurement and Evaluation. 
I'd be happy to have them come up and give you a full briefing 
on it. But to give you some sense of what we're doing, we do 
some post-program experience. We go back to a sort of sound 
research basis; we follow participants in those programs over a 
defined period of time--2 to 3 years--so that we can see what 
was the benefit of it, measuring it. So that's one way that 
we're doing it. We know from our initial reports of that, which 
just came out earlier this year, that they have a positive 
impact on people's perception of the United States.
    I think we are also trying to establish a process of trend 
analysis, so that we can see over time and filter out some of 
the sort of intervening effects, and you should be able to over 
a period of time discern some trends. You have to have a 
relatively short period of time. You don't want to be 5 years 
into a program and go, well, that doesn't work. So there are a 
variety of different mechanisms and levers that we're pulling. 
But I'd be happy to have the head of the evaluation team come 
up and brief your staff if you'd like to hear more details.
    But to me it's absolutely essential. One of the things we 
do is, as we're rolling out new programs, we build in some 
measures of effectiveness, so that we're trying to embed in the 
culture the sense that you have to do this on a going forward 
basis.
    Senator Wicker. Who is that Fulbright scholar that's now 
President of his country?
    Ms. McHale. I knew you were probably going to ask that. 
I'll get back to you with a full list.
    [The written information submitted by Ms. McHale follows:]

    There are three Fulbright Alumni who are current Heads of State:

  <bullet> John Mills, President of Ghana (2009-present);
  <bullet> Sebastian Pinera, President of Chile (2010-present); and
  <bullet> Colvert Young, Governor General of Belize (1993-Present).

    Fulbright Alumni who are former Heads of State (with their terms in 
office) include:

  <bullet> Giuliano Amato, Prime Minister of Italy (1992-1993, 2000-
        2001);
  <bullet> Marek Belka, Prime Minister of Poland (2004-2005);
  <bullet> Fernando Henrique Cardoso, President of Brazil (1995-2003);
  <bullet> Ingvar Carlsson, Prime Minister of Sweden (1986-1991, 1994-
        1996);
  <bullet> Wlodzimierz Cimoszewicz, Prime Minister of Poland (1996-
        1997);
  <bullet> Lamberto Dini, Prime Minister of Italy (1995-1996);
  <bullet> Ivy Dumont, Governor General of the Bahamas (2001-2005);
  <bullet> Zlatko Lagumdzija, Prime Minister of Bosnia and Herzegovina 
        (2001-2002);
  <bullet> Hyun Jae Lee, Prime Minister of South Korea (1988);
  <bullet> Jamil Mahuad, President of Ecuador (1998-2000);
  <bullet> Beatriz Merino, Prime Minister of Peru (2003);
  <bullet> Moeen Qureshi, Prime Minister of Pakistan (1993);
  <bullet> Wallace Rowling, Prime Minister of New Zealand (1974-1975);
  <bullet> Alejandro Toledo, President of Peru (2001-2006).

    Attached please find a list of the 55 alumni of all ECA programs 
who are current Chiefs of State of Heads of Government.
    [Editor's note.--The above attached list can be found on page 59 in 
``Additional Material Submitted for the Record.'']

    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kaufman. I'd just like to make--and Senator Wicker 
and I are in exactly the same place in terms of the deficit and 
the rest of it. But I must tell you, every time----
    Senator Wicker. Not exactly.
    Senator Kaufman. Well, no, I think we are, in terms of 
being concerned about them and making sure that whatever money 
we spend--we may be a little different about how to get there.
    But it does offend me every time people start talking about 
us on Al Jazeera and us having gone on Al Jazeera and Al 
Jazeera having this and Al Jazeera having that. We're the most 
powerful military, economic, and strategic political 
organization, diplomatic organization, in the world, in the 
history of mankind, and the idea that we spend $100 million on 
our TV station and we allow a small Arab country to spend $400 
million on their TV station and therefore one of the reasons 
why we have 35 million combined and they have the big numbers 
they have is the fact that we don't spend money.
    In terms of long-term effectiveness, I don't think anybody 
would argue that if we could do something, especially now that 
we have a counterinsurgency strategy, if we could do something 
to change the hearts and minds of people around the world--let 
me tell you, Al Jazeera is doing a hell of a job. I don't have 
to measure it. I know. They're out there in the street 
constantly stirring things up, constantly presenting things.
    So I think that I'm concerned about the deficits, but I'm 
also concerned that we don't get outdone by a third-rate 
country.
    Ms. McHale. I think that we live in an age, again, of the 
24-hour news cycle. We all know that. You know that. We have to 
do that. It is very, very difficult to do that. We have to get 
better at responding across the board. We have to get better at 
telling sort of our side of the story and being very proactive.
    I'll give you a quick example recently as a result of the 
Haiti crisis, for example, where, frankly, I thought our 
response was America at its best. Our military went in; they 
reestablished the airport. Americans opened their hearts and 
their pocketbooks to the Haitian people. And the headlines and 
the stories around the world, including, may I say, Al Jazeera, 
were horrifying. It was ``the American invasion.''
    So what we did was very proactive. We responded to that. We 
very specifically had our chiefs of mission around the world 
respond to that. I personally called Al Jazeera and said: What 
you're doing is not only inaccurate, it's unprofessional; how 
can you do that? And frankly, I got a letter of apology from 
them in terms of their coverage because it was inaccurate.
    But more importantly, around the world our ambassadors were 
able to change that story. So you literally could see it. I 
think it demonstrated the importance of our responding very 
quickly and not allowing things like that to develop.
    Senator Kaufman. Can you talk a little bit about--everybody 
talked about the importance of TV and I think that's absolutely 
essential. The advantage we have in the Arabic world is we have 
satellite TV, so we can actually broadcast into countries. Can 
you talk about how you get into countries or how we should be 
dealing with countries that clearly won't let us do anything on 
TV, will fight everything we do on the radio, countries like 
China and Russia, the Stans primarily, nations in Africa?
    And I'm not just talking about broadcasting. I'm talking 
about the whole public diplomacy effort. How do we make that 
more effective?
    Ms. McHale. Well, obviously it's a very challenging 
environment in countries like that. But we can't allow the 
challenges to deter us. I think what we're doing is trying to 
understand, how can we get our message in. Clearly, the 
Internet is one way to do it, and I think the Secretary has 
been very strong on her position and her support for freedom of 
the Internet. We see that that is a way of going in.
    Frankly, I believe that the regimes that try to sort of 
keep out information are fighting a losing game. They cannot 
continue to do that. I think what we try to do is look at all 
the tools that are available to us and try to find the best way 
to get in, because frankly at the end of the day they can't 
win--this is a zero sum game for them and they will lose it. 
You can't suppress information. I think you see that all over 
the world. Even in countries which 5 or 10 years ago did not 
have access to information, like many parts of Africa, they're 
using mobile phones which have become a very effective 
communication tool. We are adapting our programs and strategies 
to be able to reach people wherever they are, even in very 
difficult circumstances.
    A lot of it will be Internet-based. BBG's going to continue 
to do the great work that they do, which is essential for 
everything that we're trying to achieve. But at the end of the 
day I do believe we will prevail in this environment. There is 
simply no way for them to keep the information out, and we see 
so many examples of that.
    Senator Kaufman. Can you talk a little bit--I didn't 
realize this. There are 14 Cabinet-level departments and 48 
independent agencies in the government participating in at 
least one or another form of official public diplomacy. Can you 
talk about--the former Under Secretaries talked about how 
challenging it is to coordinate everything that's going on 
throughout the government. Can you talk about where we are and 
the state of play on that?
    Ms. McHale. Yes, I think it is complicated. Yet I think 
it's critically important for any number of reasons. I think 
it's important for us to be consistent in how we communicate, 
but I also think--I think Evelyn used the word--let's leverage 
all the resources we have. So we participate in the IPC 
process--the NSC takes the lead in this and brings in agencies 
and departments to work together.
    I have been struck by, to be honest, the degree of 
collaboration that I've actually encountered. So I work very 
closely--the agencies that I work most closely with would be 
Department of Defense and USAID. Those three agencies together 
really have a lot in common. So we're trying to figure out 
what's the best way of leveraging it.
    But there is a change in the IPCs that are there. What we 
are all trying to do is, because I think everyone here 
understands the importance of collaboration, is to work ahead 
of the game and figure out ways that we can do it.
    Senator Kaufman. Without getting into anything classified, 
can you give me an example off the top of your head of a 
program you're doing with the Department of Defense that you 
really think is working well?
    Ms. McHale. I would probably rather talk to you about that 
separately.
    Senator Kaufman. OK. Can you talk a little bit about surge? 
What happens with these--so many times, all of a sudden we have 
a problem. There isn't much ability from a budget standpoint to 
put things on the shelf to bring out. But can you talk a little 
bit about--Haiti is a very good example, but also what we're 
doing in Afghanistan? In other words, here we are faced with an 
extraordinary situation, it's not business as usual. Many of 
those things are incredibly important. Just give me some feel 
for how you----
    Ms. McHale. Sure. I'll approach it two ways. First, 
Afghanistan and Pakistan. I'll start with the easy one. 
Basically, frankly, what we've done in Pakistan and 
Afghanistan, we have supplemental budgets focused on 
communications; strategic communications. I've worked very 
closely with Ambassador Holbrooke and his team to put together 
a comprehensive strategic communications plan for Pakistan and 
for Afghanistan. I think I provided copies to the committee of 
that plan.
    Senator Kaufman. Yes, you did.
    Ms. McHale. There you actually see the sort of interagency 
cooperation and collaboration and how we've done it. In cases 
like Haiti, what we try to do, because you have to anticipate 
that there will be crises like this--one of the things that 
we're trying to do with our new focus on the budgets and how 
they're actually being administered is to be sure that we have 
sufficient unallocated funds that would enable us to deal with 
crises like that.
    The other thing that happens is that at the moment of a 
crisis you look to what you have in your existing budgets that 
you could repurpose. Obviously, circumstances changed pretty 
dramatically in Haiti. There were existing funds there that we 
looked at to repurpose, and then we supplemented those with 
additional funds that I have within my office.
    Senator Kaufman. Thank you very much.
    I just want to recognize Tom Dine here. Talk about public 
diplomacy, someone who has been a leader in public diplomacy as 
the president of Radio Free Europe-Radio Liberty.
    I want to thank everybody for coming today. This is an 
important issue and I really think we've had a lot of light on 
it.
    Thank you very much.
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Under Secretary Judith McHale to Questions Submitted by 
                         Senator John F. Kerry

    Question. The President's FY 2011 State Department budget request 
shows an increase of $47.7 million above the FY 2010 appropriated level 
for public diplomacy. What percentage of these funds will go into 
expanding educational and professional exchange programs that target 
Muslim-majority and developing countries?

    Answer. The increase of $47.7 million illustrated in the FY 2011 
President's budget request supports public diplomacy programs funded 
within the Diplomatic and Consular Programs (D&CP) appropriation and 
excludes funding to expand educational and professional exchanges. 
Educational and professional exchanges are funded through the 
Educational and Cultural Exchanges (ECE) appropriation which includes 
within the request approximately $83.2 million that will support 
programs in Muslim-majority countries.

    Question. The domestic dissemination restrictions of the Smith-
Mundt Act have been criticized as anachronistic given the global reach 
of the Internet, and as unduly limiting the ability of the State 
Department to conduct public diplomacy in a timely and effective 
fashion. Do you support amendment to or repeal of the act's domestic 
dissemination restrictions?

    Answer. The Smith-Mundt and Zorinsky restrictions were enacted 
years ago and designed to ensure that public diplomacy funds and 
materials not be used to propagandize the American people or influence 
U.S. public opinion. With the consolidation of the United States 
Information Agency and the State Department and the widespread use of 
the Internet, these restrictions pose challenges to advancing the core 
public diplomacy mission of informing and influencing foreign 
audiences. These restrictions also place limitations on our ability to 
inform the American people about our efforts overseas and, on occasion, 
engender duplication of effort.
    In light of this and changes in technology in recent years, it 
would make sense to review the law to ensure that it still expresses 
the will of Congress, and allows us to accomplish our multiple missions 
as efficiently and effectively as possible. I am not in a position to 
prejudge the results of such a review.

    Question. The independent U.S. Advisory Commission on Public 
Diplomacy can review U.S. public diplomacy activities and report on its 
findings. Do you support increasing the Commission's role in assessing 
U.S. public diplomacy efforts, and could the Commission serve in the 
place of a proposed independent support organization for public 
diplomacy?

    Answer. I welcome support for U.S. public diplomacy from a variety 
of sources, not only from within the government but also from the 
private sector. The U.S. Advisory Commission on Public Diplomacy has 
for years supported the public diplomacy function by offering 
independent assessments of U.S. Government activities intended to 
understand, inform, and influence foreign publics. However, I believe 
public diplomacy is best served by dialogue with a variety of 
organizations outside of the Department of State which are interested 
in international outreach and engagement and not one single independent 
organization.
    I have read the many reports on public diplomacy, some of which 
call for a separate independent organization. I do not believe that 
such an organization is needed at this time. As I lay out in the public 
diplomacy framework, what public diplomacy needs is a more strategic 
focus, structural changes, improved processes which help ensure the 
link between policy and public diplomacy, and adequate resources. The 
real work is to ensure that public diplomacy has a seat at the 
policymaking table, and that resources are deployed in accordance with 
policy priorities. Toward this end, for example, we are moving ahead to 
create public diplomacy deputy assistant secretary (PD DAS) positions 
in each regional bureau.

    Question. You stated that interagency coordination has not been 
problematic, and that you are part of ongoing interagency discussions 
on public diplomacy and strategic communications. Given your seat at 
the table, how should the Congress approach the disparity of resources 
between DOD and the State Department for strategic communication and 
other kinds of public diplomacy? Should we accept the status quo, or 
should funding levels be modified?

    Answer. The State Department is developing well-reasoned and 
strategically justified requests for appropriate levels of funding for 
public diplomacy (PD) and strategic communication (SC) to present to 
Congress, through the annual State Department appropriations process.
    PD coordination across the U.S. Government is improving but still 
needs to get better. As part of the effort to improve coordination, I 
and members of my office regularly participate in the Interagency 
Policy Coordination (IPC) meetings led by the National Security Council 
(NSC) staff. This enables us to address a wide range of issues, 
including global, regional, and country-specific matters; and it 
enables us to coordinate, develop, and de-conflict communications 
programs and activities across U.S. Government agencies. My staff also 
take part in a variety of other interagency coordination bodies.
    The Global Strategic Engagement Center (GSEC), which is part of my 
office, is specifically chartered to support the NSC's Global 
Engagement Directorate; and we are expanding and upgrading GSEC to 
strengthen its ability to support the interagency coordination of a 
broad range of U.S. Government SC and global engagement activities.
    I am also focused on institutionalizing the already close and 
enthusiastic dialogue and coordination between DOD and State about SC 
and PD. We have launched a joint DOD-State working group to review 
existing DOD programs in order to recommend an appropriate rebalancing 
of SC programs, authorities, and resources. This effort, under the 
purview of the National Security Council, will focus on current DOD 
strategic communication with civilian populations outside zones of 
active combat.
    As we implement the new Global Strategic Framework for public 
diplomacy about which I spoke at the subcommittee hearing , we will 
place renewed emphasis on PD coordination not only in Washington but 
also overseas to ensure that our efforts complement and, where 
possible, reinforce the activities of other departments and agencies.
    There is no question that American PD is suffering today the 
effects of years of underfunding. PD is more important than ever to 
accomplishing our foreign policy priorities, and we passed the point 
long ago where we could reasonably be expected to do more with less. 
But before we seek increased resources, I am committed to ensuring that 
we wisely spend every penny of what we already have. With the new 
framework for PD in place, we will be able to ensure a strategic 
allocation of resources in support of current foreign policy 
priorities.
    Among other steps, we are reestablishing multiyear PD plans for all 
posts that will specify our PD mission in each host country, analyze 
target audiences, inventory continuing programs and propose innovative 
tactics to achieve our goals, integrate realistic measurements of 
effectiveness, and identify the necessary resources. As we enumerate 
through those multiyear PD plans the resources necessary for success, 
and as we take into account the recommendations that will emerge from 
the DOD-State working group on rebalancing, I will be able to present a 
strategically justified rationale for an appropriate level of resources 
for PD worldwide.
                                 ______
                                 

 Responses of Under Secretary Judith McHale to Questions Submitted by 
                        Senator Richard G. Lugar

    Question. In your discussion with the committee today, you 
mentioned it was vital to have language-qualified Public Diplomacy 
officers capable of speaking with the press in the local language. With 
that in mind, please provide for the committee the designated language 
requirement level for the PD positions in the Near East Asia Bureau. 
Please indicate the language proficiency of the incumbent and of the 
officer slated to replace him/her with a pending arrival date and the 
departure of the incumbent, if known.

    Answer. The NEA Bureau has 70 language-designated public diplomacy 
positions, of which 34 are specifically designated to work with the 
media. Of the NEA language-designated public diplomacy positions, 46 
require a General Professional Proficiency (3/3) in Arabic, and 18 
require a Limited Working Proficiency (2/2) or lower in Arabic. There 
is also one regional media position that requires Advanced Professional 
Proficiency (4/4). In addition, there are also 5 Hebrew-designated 
positions (General Professional Proficiency or lower) and 1 position 
requires a General Professional Proficiency in French.
    Of the incumbents in these 70 language-designated positions, 58 
meet or exceed the language requirement.
    During the upcoming summer transfer season, 24 Public Diplomacy 
language-designated positions will rotate. Eighteen of the incoming 
Public Diplomacy officers meet or exceed the language requirements of 
the positions they will fill. In an effort to increase the number of 
language-qualified Public Diplomacy officers, the NEA Bureau often 
fills its language-designated public diplomacy positions far enough in 
advance to allow time for language training. Depending on the language 
and the level required, language training can sometimes take 1 to 2 
years. The challenge so far has been having enough officers to fill 
existing positions as well as having officers in this ``language 
float.''

    Question. As per H.R. 489, and the policy of the Bush 
administration to convert the head of the International Information 
Programs Bureau from a Coordinator to an Assistant Secretary in order 
to highlight the importance of IIP activities, is there an available 
Assistant Secretary slot unencumbered to use for this position (given 
that the number of such positions is capped by statute)? If such a slot 
is available, will it be used for IIP? If not, what are the perceived 
advantages of keeping the position as a Coordinator?

    Answer. There is an available Assistant Secretary slot unencumbered 
which could be used for the head of IIP. Deliberations are ongoing 
among the Department's senior leaders as to whether the IIP Coordinator 
should be designated an Assistant Secretary, or whether that slot 
should be used elsewhere.

    Question. The recent OIG inspection of the Public Affairs Bureau 
noted that four of the eight offices in the Bureau's USAID Press Office 
are vacant. OIG recommends filling the vacant Director of that office 
with someone selected by USAID. Please provide a staffing pattern for 
the Office showing grade levels and brief job descriptions. Please note 
which positions are currently vacant and for how long they have been 
so. Additionally, the OIG has called the arrangement of this office 
``institutionally awkward.'' Please provide an organizational chart 
showing the location of the Office within the PA structure and provide 
other possible alternative arrangements.

    Answer. The duties of the Public Relations Officers in USAID are 
basically similar and the duties follow:
Public Affairs Specialists/Press Relations Officer
    Serves as senior advisor to assigned USAID senior staff on all 
press matters. Meets regularly with assigned senior staff to formulate 
press guidance and official response to media inquiries. Reviews media 
requests and determines appropriate responses to queries. Arranges and 
conducts media interviews in response to requests and proactively 
generates media interest on USAID issues. Provides confidential 
briefings to USAID senior staff regarding on-going programs and 
developments. Briefs USAID senior staff on possible interview questions 
and provides guidance on appropriate responses. Prepares briefings 
materials and talking points for senior USAID officials in preparation 
for news media events. Prepares press releases, fact sheets, and other 
background materials for use with the news media. Prepares, reviews, 
and edits speeches, testimony, talking points and other written 
materials for USAID officials attending public events. Arranges and 
coordinates major public events, which involve heads of state and other 
high-level visits with USAID Administrator and other senior officials. 
Arranges for media coverage and works with White House and other 
government agencies. Provides press materials and serves as officer-in-
charge of events. Covers congressional hearings affecting USAID to 
assist with background information for media. Travels to assigned 
countries to provide assistance with media events, media training, and 
other media-related events at the USAID missions.
    Attached is an organizational chart for the USAID Press Office as 
well as the updated organizational chart for the entire Bureau of 
Public Affairs. Some structural changes have been made to both the 
press office and the Bureau to address the shortcomings identified by 
the office of the Inspector General, including moving the USAID press 
office to report directly to the Spokesman.
    While staffing shortages have plagued this office for far too long, 
we are optimistic that they will soon be addressed. We have identified 
candidates for the Director position and now titled Deputy Director 
position, both traditionally filled by Schedule C appointees, which 
have been vacant since January 20, 2008. Both individuals are scheduled 
to begin work in early April. The Public Affairs Assistant position 
that has been vacant since March 24, 2008, and has not been filled due 
to a variety of reasons. The long vacancy in this position will be one 
of the first issues we will ask the new Director of the office to 
tackle.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. The committee was recently briefed by S/SRAP officials on 
a $50 million dollar congressional Notification for PD activities to 
Build Afghan Communication Capacity and Counter Extremist Voices in 
Afghanistan. Please provide a breakdown of the personnel currently at 
post and in Washington who will implement these activities (by grade, 
position, cone and office)--particularly in light of the OIG's recent 
inspection of Embassy Kabul which found that ``most of the Public 
Affairs Section had only limited PD experience.'' The OIG report also 
notes that the Embassy requested some 27 new FS and LE PD positions--
what is the status of those requested positions?

    Answer. Kabul Public Affairs Section (PAS) staff members are fully 
engaged on a range of public outreach programs, including building 
communications capacity, countering extremist voices, strengthening 
people-to-people ties and expanding media engagement. PAS is currently 
staffed with 22 American and 18 Locally Employed Staff (LES). Twenty 
additional American positions and 20 additional LES positions were 
requested and approved, and are in the process of being filled.
    PAS Kabul is comprised of a Director of Communications and Public 
Diplomacy, who is a 3161 limited appointment, a Public Affairs officer 
(a Senior Foreign Service Public Diplomacy officer), two deputy Public 
Affairs officers (Foreign Service (FS) grade 01 PD officer and Civil 
Service (GS) grade 15 PAO), three Information officers (an FS grade 02 
Management officer, and FS grades 03 and 04 PD officers), four Cultural 
Affairs officers (one FS 02, three FS 03), and seven 3161 PD-
experienced employees equivalent to mid-level FS officers. New 
positions will build on existing staffing of information officers, 
cultural affairs officers, and also include the addition of grants 
management and contracting officers to help develop and track grants 
and contracts. Some of these new positions have been filled temporarily 
during the summer months in the leadup to the end of fiscal year. There 
are also seven Department of Defense personnel and USAID communications 
specialists working on these issues within PAS and who report to the 
Director of Communications and Public Diplomacy.
    Five Public Diplomacy Officers presently operate in the field 
outside of Kabul. The PAOs for consulates in Herat and Mazar-e-Sharif 
are in place in Kabul until the consulates open. Two immediately 
available positions are open for Public Diplomacy officers in Helmand 
and Kandahar and are in the process of being filled. Eventually, the 
Department intends to place Public Diplomacy officers on at least 26 
Provincial Reconstruction Teams (PRTs). The current field positions are 
occupied by two FS grade 02 officers and three 3161s at the equivalent 
level.
    In Washington, the public affairs arm of the Bureau of South and 
Central Asian Affairs has the following employees supporting Strategic 
Communication activities: Director (GS15); Deputy Director (FS02 PD 
Cone); Program Coordinator (WAE), Public Diplomacy Desk officer (FS03 
PD cone), Social Media officer (FS04 PD cone); Grants Program 
Specialist (3161); Program Specialist (contractor).

    Question. The Bureau's Strategic Approach for the 21st century 
calls for clear dissemination and coordinated guidance to posts for the 
use of digital tools such as Facebook and YouTube and to ``address 
confusion and inconsistency'' in their utilization. Given the 
prominence new media is playing in current PD strategies, what have 
been the Department's attempts to address such problems and what more 
needs to be done?

    Answer. The Department's Internet Steering Committee, chaired by 
the Bureau of International Information Programs (IIP), has for 10 
years developed policies guiding the Department's presence on the 
Internet. Over the past year, this committee coordinated a Department-
wide effort with key experts from the Office of Privacy, Records 
Management, the Bureau of Information Resource Management (IRM) and the 
Bureau of Diplomatic Security (DS) to create clear policy specifically 
addressing the Department's sue of social media. Publication in the 
Foreign Affairs Manual (FAM) is expected within a month. That policy 
will formalize guidance that has been in place as social media tools 
became rapidly employed for Department use within the last 2 years. 
Approximately a year ago, IRM issued a worldwide notice on the subject 
of social media usage as a precursor to the formal and more detailed 
FAM Chapter.
    IIP coordinates the development of social media products and 
services with all relevant stakeholders. The Bureau's pilot initiative 
on innovative engagement is the Department's central resource for tool-
specific social media guides; e.g., how to establish a Facebook 
presence, or how to incorporate video and Twitter into targeted 
information campaigns for use abroad. This pilot initiative publishes 
guides on its Social Media Hub, available worldwide on the Department's 
Intranet, and to the wider interagency community via Intelink.
    IIP support is designed to empower American embassy officers and 
locally employed staff to use social media for engaging foreign 
publics. Guidance includes:

  <bullet> Social Media Field Guides provide policy-based step-by-step 
        instruction for most commonly used tools and platforms;
  <bullet> Discussion forums for specific and current social media 
        topics;
  <bullet> Best Practices showcase innovation in social media 
        throughout the Department;
  <bullet> Research assists Posts with analysis and engagement 
        opportunities;
  <bullet> ``Ask the Expert'' is a new webinar series with outside 
        experts;
  <bullet> Community Managers Group is a virtual location for 
        department online managers to meet;
  <bullet> Training enables participants to engage in hands-on 
        discussions at the Foreign Service Institute with both public 
        affairs professionals and embassy information technology 
        managers.

    Guidance and resources related to digital tools are also available 
on INFOCENTRAL, a USG-only internal Web site that provides guidance and 
instruction for public diplomacy and strategic communication 
practitioners, includes comprehensive material on the use of USG new 
media tools such as government Facebook pages, YouTube videos, Twitter 
feeds, blogs, Web chats, and Flickr photos, so that officers in the 
field can quickly and easily access them to engage foreign audiences.
    IIP continually adapts its policies, tools, and resources to meet 
the challenges of a constantly changing communication landscape and 
audience. More needs to be done to increase both formal and informal 
training for overseas posts so resources are available to develop and 
teach the most productive uses of social media. IIP critically needs 
around the clock expert support so overseas posts can avail them of 
these services in real time. Limited resources need to be targeted 
better through more in-depth audience analysis and market focused 
testing. The Department needs more band-width, and storage, to support 
the burgeoning use of video and related social media. This requires 
extensive investment in global communication infrastructure.

    Question. The Bureau's Strategic Approach for the 21st century 
calls for greater outreach to alumni of USG exchanges. What have been 
the current budgets for such programs and what increases have been 
proposed to keep alumni engaged in USG programming?

    Answer. For both FY 2010 and FY 2011, funding for alumni outreach 
is $4,135,000 per year. This amount reflects a substantial increase 
over the $1,000,000 budgets of the past several years for alumni 
activities. Expanding opportunities for the USG to stay connected with 
exchange program alumni and for them to better connect with each other 
is a top priority under the Public Diplomacy Strategic Framework.

    Question. By when do you hope the PD regional bureau Deputy 
Assistant Secretary positions will be created and filled? Since each 
regional bureau already has an Office of Public Diplomacy, staffed by 
an Office Director, what other issues will the DAS cover or offices 
supervise, to prevent him/her from becoming what is, in essence, a 
glorified office director?

    Answer. We hope that the new Public Diplomacy Deputy Assistant 
Secretary positions will be established and filled by this summer.
    By establishing a PD DAS position in each regional bureau, we hope 
to institutionalize PD's role in ensuring that Bureau policy 
discussions are informed upfront by a research-based understanding of 
foreign opinions and attitudes. While we recognize that Public 
Diplomacy Office Directors are generally included in bureau policy and 
resource discussions, this has not been the case universally.
    As DASes, these individuals will be the regional Assistant 
Secretary's primary adviser on all Public Diplomacy and Public Affairs 
matters. The PD DAS will also be responsible for seeing that Public 
Diplomacy operations and resources in the region are tied to policy 
objectives and align with the Department's priorities and standards. 
The PD DAS will be expected to nurture strong working relationships 
with the leaders of all three R bureaus (i.e., ECA, IIP, and PA) to 
enlist their consistent support for regional information and outreach 
requirements. They will oversee Public Diplomacy assignments process 
for the bureau, recruiting and mentoring officers for regional 
positions, and participating with other leaders in the decisionmaking 
process to ensure the most qualified officers are assigned 
appropriately. The PD DAS will serve as the rating officer for the 
bureau Public Diplomacy Office Director and the reviewing officer for 
any deputy(-ies) in that office; some bureaus may elect to have the PD 
DAS also have some role in reviewing the performance of PAOs in the 
field. Finally, the PD DAS may also represent the Assistant Secretary 
or the Principal DAS when necessary.
                                 ______
                                 

List of Alumni of ECA Programs Who Are Current Chiefs of State of Heads 
                             of Government
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

 Responses of Under Secretary Judith McHale to Questions Submitted by 
                      Senator Russell D. Feingold

    Question. Former Under Secretary Glassman testified that 
international broadcasting is currently one of the most successful 
public diplomacy programs run by the U.S. Government, and that the 
BBG's success in building ``mutual interest and mutual respect'' comes 
from providing an ``accurate, objective, and comprehensive view of 
America and its policies.'' However, a 2009 GAO report cited 
questionable journalistic standards and biased editorialization at the 
Office of Cuba Broadcasting, and at a House Foreign Affairs 
Subcommittee hearing in June 2009, an expert witness testified that 
Cubans ``are going to look for more credible sources of information and 
entertainment [than Marti].'' Do you agree that if broadcasts are 
perceived as unreliable, inaccurate, or biased, they may actually be 
counterproductive and undermine both the stated goals of the BBG and 
the broader public diplomacy goals of the U.S. Government?

    Answer. The United States is a strong supporter of freedom of 
expression and high journalistic standards around the world. We agree 
that unbiased and objective reporting should be the cornerstone of all 
broadcasting supported by the United States Government.
    The State Department appreciates the collaborative partnership that 
we have with the BBG, as well as the role that the Department's seat on 
the BBG Board of Governors serves in advising the Board on U.S. foreign 
policy goals.
    For additional information on how the BBG ensures high journalistic 
standards for its broadcasting, including its office of Cuba 
Broadcasting, we suggest you reach out to the BBG directly.

    Question. Mr. Glassman testified that we need to focus on 
``Strategic Public Diplomacy'' geared to addressing our national 
security priorities, and in your testimony you identified strategic 
imperatives that included countering violent extremism and 
``redeploying resources in strategic alignment with shifting 
priorities.'' Please describe the unique strategic importance of Cuba 
Broadcasting as part of our public diplomacy and national security 
strategies. Despite extensive and expensive efforts by the OCB, 
numerous reports have found that very few Cubans are interested in 
tuning in to Radio or TV Marti or able to do so, and I remain concerned 
that we will spend over $30 million in FY10 ineffectively promoting 
human rights through jammed radio and TV broadcasts to Cuba.

    Answer. An important component of the administration's policy 
toward Cuba includes promoting human rights and fundamental freedoms. 
President Obama has made promoting freedom of expression and the free 
flow of information to, from, and within the island one of the 
cornerstones of this policy.
    Some examples of steps that we have taken to support this policy 
include the President's April 2009 announcements easing restrictions on 
family travel and regulatory and policy changes permitting increased 
telecommunication between the United States and Cuba which enable 
Cubans access to additional sources of information. Most recently, the 
administration established a general license category for personal 
Internet communications services to reinstate services that were 
temporarily cut off by companies that feared that they were in 
violation of U.S. sanctions. Live Messenger, Facebook, and Twitter, 
among others, are free personal Internet communication tools that can 
be accessed by people all around the world.
    We believe that Radio Marti continues to serve a critical function 
in providing uncensored news and information to the people of Cuba. We 
agree that its programming should be of the highest caliber. It is very 
difficult to accurately account for the percentage of people in Cuba 
who listen to Radio Marti, for a variety of reasons related to the 
closed nature of the state and the challenges involved with conducting 
survey research on the island. We defer to the Broadcasting Board of 
Governors for more detailed information about their audience reach and 
their approaches to assessment of impact. Limited survey research 
indicates, however, that Cubans do listen to and appreciate having 
access to Radio Marti.

    Question. In your testimony, you said that the U.S. Government must 
``develop new ways to communicate and engage with foreign publics,'' 
and highlighted the use of new technologies and new media to expand our 
global reach. In the Consolidated Appropriations Act of 2010, Congress 
requested a report on the efficacy of Cuba Broadcasting and on possible 
alternative means of reaching a larger audience in Cuba. In light of 
the aforementioned problems that plague Radio and TV Marti, would you 
consider advocating for the suspension of continued operation of the 
OCB and Radio/TV Marti broadcasting in favor of such new media 
alternatives?

    Answer. We do not support suspending broadcasting to Cuba because 
it provides the Cuban people with uncensored news and information. Nor 
do we think this is the only appropriate media with which to interact 
with the Cuban people. Throughout the world, and certainly including 
Cuba, we must make sure that we are communicating with the public in 
innovative ways that allow different audiences to access information 
through their preferred media outlet. For example, the Web site of the 
U.S. Interests Section in Havana already includes a Facebook link in 
Spanish. We will continue to reach out to the island through new, as 
well as traditional, media in a multifaceted campaign; the continued 
emphasis on traditional media is particularly important in a country 
where Internet access remains largely out of reach for the majority of 
Cubans.
    We also note that new technologies and the country's important 
youth demographic are natural allies in the pursuit of greater freedom 
of expression and the free flow of information. Emerging online tools 
have the potential to allow young activists to collaborate virtually 
and physically with counterparts throughout the country and around the 
world to empower citizens and advance democratic processes.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
